<html>
<title> - ENSURING A FREE, FAIR,. AND SAFE ELECTION DURING THE CORONAVIRUS PANDEMIC</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                         ENSURING A FREE, FAIR,
                        AND SAFE ELECTION DURING
                        THE CORONAVIRUS PANDEMIC

=======================================================================

                                HEARING

                               BEFORE THE

             SELECT SUBCOMMITTEE ON THE CORONAVIRUS CRISIS

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 9, 2020

                               __________

                           Serial No. 116-115

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-940 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Wm. Lacy Clay, Missouri              Jim Jordan, Ohio
Stephen F. Lynch, Massachusetts      Paul A. Gosar, Arizona
Jim Cooper, Tennessee                Virginia Foxx, North Carolina
Gerald E. Connolly, Virginia         Thomas Massie, Kentucky
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             Gary Palmer, Alabama
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

           David Hickton, Select Subcommittee Staff Director
                      Russ Annello, Chief Counsel
                         Senam Okpattah, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                

             Select Subcommittee On The Coronavirus Crisis

               James E. Clyburn, South Carolina, Chairman
Maxine Waters, California            Steve Scalise, Louisiana, Ranking 
Carolyn B. Maloney, New York             Minority Member
Nydia M. Velazquez, New York         Jim Jordan, Ohio
Bill Foster, Illinois                Blaine Luetkemeyer, Missouri
Jamie Raskin, Maryland               Jackie Walorski, Indiana
Andy Kim, New Jersey                 Mark E. Green, Tennessee
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on September 9, 2020................................     1

                               Witnesses

Kerry Washington, Actress/Activist, Co-Chair of When We All Vote
Oral Statement...................................................     7

Kristen Clarke, President and Executive Director, Lawyers' 
  Committee for Civil Rights Under Law
Oral Statement...................................................     9

Mimi Marziani, President, Texas Civil Rights Project
Oral Statement...................................................    11

Krutika Kuppali, M.D., Assistant Professor of Medicine, Division 
  of Infectious Diseases, Medical University of South Carolina, 
  Vice Chair of Global Health Committee, Infectious Diseases 
  Society of America
Oral Statement...................................................    13

Jay Ashcroft, Missouri Secretary of State
Oral Statement...................................................    15

Written opening statements and the written statements of the 
  witnesses are available on the U.S. House of Representatives 
  Document Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing are listed 
  below and available at: docs.house.gov.

  * Committee Staff Report; submitted by Select Subcommittee 
  Chairman Clyburn.

  * Opinion by the North Carolina 4th Circuit; submitted by 
  Chairwoman Carolyn Maloney.

  * Article on COVID-19 Transmission by National Academies of 
  Sciences, Engineering, and Medicine; submitted by Rep. Bill 
  Foster.

  * Article by Politifact; submitted by Rep. Jamie Raskin.

  * Letter of Support from National Disability Rights Network re: 
  Recommendations Endorsed by the Select Subcommittee; submitted 
  by Select Subcommittee Chairman Clyburn.

 
                         ENSURING A FREE, FAIR,.
                        AND SAFE ELECTION DURING
                        THE CORONAVIRUS PANDEMIC

                              ----------                              


                      Wednesday, September 9, 2020

                   House of Representatives
      Select Subcommittee on the Coronavirus Crisis
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 1:11 p.m., via 
Webex, Hon. James E. Clyburn (chairman of the subcommittee) 
presiding.
    Present: Representatives Clyburn, Waters, Maloney, 
Velazquez, Foster, Raskin, Kim, Scalise, Luetkemeyer, Walorski, 
and Green.
    Chairman Clyburn. Welcome to today's Select Subcommittee on 
the Coronavirus Crisis hearing, entitled ``Ensuring a Fair, 
Free, and Safe Election During the Coronavirus Pandemic.''
    Let me remind members of a few procedural points.
    As a reminder, this hearing is being recorded and live-
streamed. The rules require that members have their video 
turned on the entire time in order to be recognized. Staff 
should keep their videos off at all times.
    Members should remain muted to minimize background noise 
and feedback until they are recognized by the chair. Members 
will be recognized in order of seniority for five minutes of 
questions each. The timer should be visible on your screen when 
you're in the grid view under the username ``0-timer.''
    Members who want to be recognized may do so in three ways: 
You may use the chat function located under the participants 
panel to send the request, you may send an email to the 
majority staff, or you may unmute yourself to seek recognition.
    Members who experience any technical difficulties should 
notify committee staff as soon as possible using the chat 
function located under the participants panel or by email.
    And now I will wait until they tell me the live-stream is 
ready.
    Good afternoon. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    I now recognize myself for an opening statement.
    This morning, we heard the President, in his own words, 
recorded in February, describe the coronavirus as, and I quote, 
``deadly stuff,'' end of quote. Yet we also heard a recording 
from March in which he admitted, quoting again, ``I wanted to 
always play it down. I still feel like playing it down, because 
I don't want to create a panic,'' end of quote.
    The Trump administration did play down this deadly 
pandemic, refusing to level with the American people about the 
known danger and refusing to develop and implement a national 
plan to stop the spread. As a result, more than 190,000 
Americans have died, and the coronavirus is continuing to kill 
hundreds and infect tens of thousands every day.
    Over the next eight weeks, Americans will be casting their 
votes in the midst of this ongoing crisis. Holding a free, 
fair, and safe election under these circumstances is a 
challenge. But let there be no doubt: If we all do our part, 
America is up to the challenge.
    In June, the Centers for Disease Control and Prevention 
issued simple--their guidance to keep people healthy while 
casting their votes. The fundamental principle of this public 
health guidance is, and I quote, ``reducing the number of 
voters who congregate indoors in polling locations at the same 
time,'' end of quote.
    The CDC guidance includes three key elements. First, CDC 
calls for, and I quote, ``alternatives to in-person voting that 
includes voting by mail and drop boxes to safely collect 
ballots. Second, CDC calls for, quoting again, ``increasing the 
number of polling locations available for early voting and 
extending their hours of operation.'' Third, CDC recommends 
that election administrators, quoting again, ``maintain or 
increase the number of polling places available to the public 
on election day.''
    These simple steps are achievable everywhere in America, 
and I am pleased that many state and local officials, both 
Democrats and Republicans, have made progress in implementing 
them.
    Unfortunately, not every jurisdiction is following the 
CDC's guidance. The consequences of this refusal are 
predictable. We saw what happened in this year's primary 
elections in states that reduced the number of polling places 
and did not have adequate alternatives to in-person voting.
    In Georgia, voters waited up to five hours to cast their 
ballots. In Texas, voters endured lines up to seven hours long. 
In Wisconsin's largest city, Milwaukee, 97 percent of polling 
places were closed, leading to long lines for the city's 
voters. In Florida, 112 polling places across the state were 
closed, moved, or consolidated.
    These actions left many voters, especially people of color, 
unable to exercise their right to vote. We cannot allow the 
pandemic to be used as a cover to continue or exacerbate the 
ugly history of voter suppression.
    In August, the select subcommittee launched an 
investigation to determine whether states where primary voters 
faced significant barriers to cast their ballots have made 
necessary improvements for the general election. Today, we are 
issuing a staff report with some troubling findings that must 
be corrected.
    I ask unanimous consent that this report be entered into 
the record.
    Without objection, so ordered.
    Chairman Clyburn. In Texas, local election officials warned 
that voters could be waiting in lines for hours on election day 
and reported that not having enough poll workers is their 
primary concern about the upcoming election. Given Texas's 
refusal to expand absentee voting, it is crucial that Texas 
takes steps now to recruit poll workers rather than resorting 
to closing polling places and reducing hours.
    Georgia is making a puzzling choice not to mail out 
absentee ballot applications to all voters for the general 
election after successfully doing so for the primary. Georgia's 
Secretary of State has claimed that mailing out applications to 
all voters will lead to longer lines at the polls, but the 
reality is just the opposite: Every voter who casts an absentee 
ballot is a voter who will not be in line at the polls.
    We need every state to follow the CDC guidelines so that 
all voters can cast their vote safely.
    The Federal Government also has a crucial role to play. The 
HEROES Act, which the House passed nearly four months ago, 
includes $3.6 billion to help state and local governments pay 
for equipment and staff to safely administer the election. 
Republicans should agree to allocate these funds without 
further delay.
    The Delivering for America Act, which the House passed last 
month, requires that election mail be treated as first-class, 
restores mail service to previous levels, and provides $25 
billion, as unanimously requested by the bipartisan Postal 
Service Board of Governors.
    Unfortunately, rather than play a constructive role in 
preparing for the election, the Trump administration has been 
sowing discord, fear, and confusion. President Trump has 
claimed that mail-in voting will lead to fraud even though the 
evidence shows Americans are more likely to get struck by 
lightning than to commit voter fraud by mail. There is good 
reason the President has been unable to provide evidence to 
support his claim: There is none. Mail-in voting is safe and 
secure.
    Benjamin Ginsberg, a leading Republican election lawyer, 
agrees. In an op-ed in today's Washington Post entitled 
``Republicans Don't Have the Evidence to Call Elections 
Rigged,'' he writes, ``The truth is that, after decades of 
looking for illegal voting, there is no proof of widespread 
fraud. At most, there are isolated incidents by both Democrats 
and Republicans. Elections are not rigged. Absentee ballots use 
the same process as mail-in ballots. Different states use 
different labels for the same process,'' end of his quote.
    Even while warning against fraud, the President is calling 
on his supporters to vote twice, saying voters should, and I 
quote here, ``send it in early and then go out and vote,'' end 
of quote. I hope all my colleagues today will join me and Mr. 
Ginsberg in rejecting that advice and urging Americans to 
follow the law and vote only once.
    Supporting a free, fair, and safe election should not be a 
partisan issue. And I am hopeful that we can use today's 
hearing to agree on common sense solutions to protect 
Americans' health and their sacred right to vote.
    I will now yield to my friend, the distinguished ranking 
member, Mr. Scalise, for his opening remarks.
    Mr. Scalise. OK. Thank you, Mr. Chairman. Appreciate you 
having this hearing.
    Thank our witnesses for being here.
    I'd first like to start, Mr. Chairman, by sending my 
prayers and support to the people of southwest Louisiana, 
including Lake Charles, who are still recovering from the 
devastation of Hurricane Laura. I personally went and witnessed 
this, met with local officials, along with President Trump, two 
weeks ago. They have a long way to go, a lot of devastation. 
Everybody is standing with them, and we will continue to stand 
with those strong, resilient people in southwest Louisiana to 
help them as they rebuild their homes and their communities.
    So, thank you, and, with that, now let's talk about today's 
hearing.
    Let me first be clear: Every American who is legally 
eligible to vote will have that opportunity on November 3 and 
is strongly encouraged to exercise their right to vote as well.
    Each state runs their elections, as we know, and it is our 
duty to ensure that our elections are run fairly, freely, and 
safely. One of the ways we must protect every American's right 
to vote is to ensure the integrity of their vote, to make sure 
that that integrity is preserved by rooting out voter fraud, 
which is well-documented. We must also make sure that every 
American who wants to safely vote in person will have that 
right.
    I urge all Members on a bipartisan basis to convey that 
message to the American people. The 2020 elections will be 
conducted safely, freely, and fairly, and we urge all those who 
are eligible to participate.
    Seven months into this COVID-19 pandemic, the American 
people have reminded the world about what it means to be an 
American. We hold our constitutional rights sacred. A pandemic 
will not stand in the way of Americans exercising our First 
Amendment rights. Americans still have the right to peacefully 
assemble and peacefully protest. Americans must also have the 
ability to exercise our religious freedom and the right to 
worship as we believe. As with previous pandemics like the 
Spanish flu of 1918 or military wars or periods of unrest, 
Americans will confidently go to the polls in November.
    I've spent a good part of August traveling the country and 
talking with voters--Republicans, Democrats, independents, 
Libertarians. Americans are ready, and they are motivated to 
vote. They deserve to hear from leaders in both parties that 
the elections will be held safely and fairly.
    Instead of urging losing candidates to refuse to concede, 
which unfortunately we've heard recently, as some are 
suggesting, or trying to change laws in ways that would drag 
out the result for weeks and weeks after election night, we 
need to ensure that state laws, which have been debated and 
honed over years, are respected and allowed to be implemented 
fairly and efficiently.
    What people do not want to hear is one political party 
attempting to take advantage of a pandemic to try to ram 
through their partisan election scheme that has nothing at all 
to do with this coronavirus.
    Let's listen to the experts, and let's follow the science. 
The unanimous opinion of our top public health experts is that 
in-person voting can be done safely.
    On August 13, when asked if people could go safely to vote 
in person during this pandemic, Dr. Fauci said, and I quote, 
``I think if carefully done according to the guidelines, there 
is no reason that I can see why that would not be the case. 
There is no reason why we shouldn't be able to vote in person 
or otherwise.''
    On August 20, the Centers for Disease Control and 
Prevention Director, Dr. Robert Redfield, announced that the 
CDC put our guidance on how to safely vote in person. Dr. 
Redfield stated, and I quote, ``I think people can be able to 
social distance and wear masks, and, with the recommendations 
we have for hygiene, we don't see that there is going to be a 
negative impact on your ability to vote from a public health 
perspective. I know I am going to vote face-to-face,'' close 
quote.
    In an interview on August 22, Dr. Deborah Birx said, quote, 
``I can tell you, it has been safe for me to go to Starbucks 
and pick up my order. So, if you can go into Starbucks in the 
middle of Texas and Alabama and Mississippi that have very high 
case rates, then I can't say that it would be different waiting 
in line in the polls,'' close quote.
    A recent report from the Brennan Center for Justice 
advises, quote, ``In-person voting can be conducted safely if 
jurisdictions take the necessary steps to minimize the risk of 
transmission of COVID-19 to voters and election workers,'' 
close quote.
    I hope all of my colleagues will take the opportunity to 
highlight CDC's guidance for safe in-person voting. CDC put out 
these really good guidelines showing you how to safely do this. 
Just like with safely going to school, you can educate people 
in person. Some are choosing to do it; some are choosing to 
deny those kids that opportunity. And we've talked about that 
here in this committee, Mr. Chairman.
    Just on that same level, I would urge that we follow the 
guidelines for safely voting in person. There are a lot of 
options for people to vote. You can request a mail-in ballot. 
You can vote early in many states. They have those 
opportunities. Or you can go vote in person, as many want to 
do. We ought to be promoting those guidelines.
    Look at some of the examples CDC put out in these 
guidelines right here: Ensure that poll locations are 
adequately staffed to cover any sick workers. Provide hand 
sanitizer for use at each step in the voting process. Encourage 
voters to use masks while in the polling location.
    Here's mine. You'll appreciate the colors, Mr. Chairman. 
I'll send you an extra if you want. I know you've got one of 
your own. Post signs in highly visible locations that promote 
everyday protective measures. Remind voters upon arrival to 
leave space between themselves and others. Have plans to manage 
lines to ensure social distancing.
    These are all things that are in those guidelines and more. 
If we follow those, you can safely vote in person.
    I hope all my colleagues remind voters that, since the 
beginning of March, when President Trump declared a national 
emergency due to the pandemic, 37 different states plus the 
District of Columbia have successfully held statewide primaries 
for President or their own state offices.
    I've personally voted in two different elections that we've 
had in the last few months in the state of Louisiana. I did it 
in person. It was a safe experience. I brought my son with me, 
as I normally do. We bring our children to vote with us so they 
can see this great democratic process that so many generations 
have passed on. And there was never a worry. I wore my mask; so 
did the poll workers. It was a very smooth process. I would 
encourage people to do that as well.
    Wisconsin held a very successful election near the height 
of the pandemic on April 7. A peer-reviewed study published in 
the August issue of the American Journal of Public Health 
concluded that in-person voting in Wisconsin's election by more 
than 400,000 electors did not produce a detectable surge in 
coronavirus cases. We should all be following that science.
    We've established procedures for absentee voting, early 
voting, and, in some states, voting by mail. America is ready 
to go vote. Many states vote by absentee ballot, or they 
request mailed ballots. These procedures have been in place for 
each state that does it. They all handle it a little bit 
differently. But those systems have been worked through years 
so that they know how to do it properly, how to do it safely, 
how to do efficiently. We should inspire confidence in those 
procedures. There is simply no pandemic-related reason to 
change the way we vote in 2020.
    Given the topic of today's hearing, ``Ensuring a Free, 
Fair, and Safe Election During the Corona Pandemic,'' we can 
just stop right there. We know how to do it. States are doing 
it; we should help them do it. But our Democrat colleagues do 
not want to join with us today and send that bipartisan 
message. They want to go back to advancing a bill, H.R. 1.
    This is something that Democrats have been promoting since 
last year, long before this pandemic, that does all kinds of 
things to mandate that states change the way that most of them 
do business, requiring things that most states don't want to 
do, haven't done, because they actually make elections less 
safe, they reduce the integrity of elections.
    Let's talk about it. They want to mandate ballots be mailed 
to all registered voters during this emergency. That, as I 
outlined, is dangerous. A review by Judicial Watch in early 
2020 found that 378 different counties nationwide have more 
registered voters than voting-age citizens--378 counties. 
That's millions of ballots that would be out there illegally. 
Who knows what would happen with them? But that's a staggering 
number: 378 counties nationwide have more registered voters on 
their roll than voting-age citizens. And people say there's no 
opportunity for voter fraud.
    More than 28 million mail-in ballots went missing--went 
missing--in the last four elections, according to data 
collected from the Election Assistance Commission. That's a 
Federal commission that identified more than 28 million ballots 
that have just gone missing. Who knows where they end up, if 
they end up in a ballot box, as we saw in other states, where 
weeks and weeks after the election they were still counting 
votes--somehow they just kept mysteriously showing up--until it 
changed the outcome of an election.
    Do we really want to go to that level where there are 
millions of ballots--in this case, 28 million mail-in ballots--
that literally went missing? Those are staggering numbers that 
we should all be concerned about as we want to promote fair, 
free, and safe elections. That's what we should be focused on.
    We don't want a recipe for disaster, where we literally 
would be counting ballots weeks and weeks later that would be 
showing up from who knows where, as we saw in states. We saw it 
in Florida; we saw it in California. In New Jersey, people are 
going to go to jail for voter fraud. There are all kinds of 
cases that are cited.
    In the end, why don't we put our focus on helping those 
states conduct fair, efficient, free, and safe elections for 
all Americans who are legally eligible to vote?
    I look forward to hearing from our witnesses, Mr. Chairman, 
and I yield back.
    Chairman Clyburn. I thank the ranking member for yielding 
back.
    I now would like to introduce our witnesses.
    We first welcome Kerry Washington. Her activism spans many 
levels, from serving as a co-chair for the nonprofit 
organization When We All Vote and producing a documentary 
inside look at legal battles for civil rights, to working at 
the ground level with voters to encourage them to cast their 
ballots.
    We are also honored to have Kristen Clarke, president and 
executive director of the Lawyers' Committee for Civil Rights 
Under Law.
    We are also grateful to be joined by Mimi Marziani, 
president of the Texas Civil Rights Project.
    We are also joined by Dr. Krutika Kuppalli, assistant 
professor of medicine at the Medical University of South 
Carolina. Dr. Kuppalli is vice chair of the Global Health 
Committee of the Infectious Diseases Society of America, where 
she was one of the primary authors of IDSA's ``Guidelines for 
Healthy in-Person Voting.''
    Dr. Kuppalli, I understand you have recently joined the 
faculty at the Medical University of South Carolina, so I'm 
very pleased to welcome you to Charleston and the Sixth 
congressional District.
    Finally, I am pleased introduce the Missouri Secretary of 
State, Jay Ashcroft.
    Welcome, Secretary Ashcroft.
    The witnesses will be unmuted so we can swear them in.
    Please raise your right hands.
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that the witnesses answered in the 
affirmative.
    Without objection, your written statements will be made 
part of the record.
    Thank you.
    We will now turn to Ms. Washington.
    Ms. Washington, you are now recognized.

      STATEMENT OF KERRY WASHINGTON, ACTRESS AND ACTIVIST

    Ms. Washington. Thank you, Chairman Clyburn, Ranking Member 
Scalise, and members of the select subcommittee. I am grateful 
to you for taking the time to hear my testimony and the 
testimoneys of my fellow witnesses.
    I am here not as an artist or entertainer but as an 
American and as an advocate who believes deeply in the power of 
voting. That's the reason I became a co-chair of When We All 
Vote, a nonpartisan, nonprofit organization dedicated to 
increasing participation in every election, and it's why I'm 
here today.
    When I turned 18, my mother and father took me out to 
dinner in the Bronx, where I grew up, not just to celebrate my 
birthday but to celebrate the fact that I was old enough to 
vote. My parents never took their vote for granted. They 
believed it is a sacred obligation, and it is.
    Not too long ago, an 18-year-old Black woman would not have 
been able to vote for many reasons. As you know, the legal age 
of voting used to be 21 years old. So, you could get shipped 
off to war without having any say in who your Commander in 
Chief is. As you know, women were denied their vote. We only 
just celebrated our 100th anniversary of women earning that 
right. And, of course, it used to be that Black people in this 
country could not vote. When our Constitution was written, our 
Founding Fathers designated Black Americans to be worth only 
three-fifths the value of a human being. Giving us a vote was 
out of the question.
    But as an 18-year-old Black woman, I voted, and I will 
proudly vote this November, because we all share the right and 
responsibility to vote in order to shape this democracy and 
bring us closer to a more perfect Union. Our ancestors fought 
to widen the circle of people who could vote, and now, on our 
watch, it is at serious risk of contracting.
    As you all know, there are many reasons for this, from 
gerrymandering to voter-roll purges. In Georgia, more than 
300,000 names were purged from the voter rolls last year alone. 
An ACLU study found that over 63 percent of those named, nearly 
200,000 American citizens in Georgia, were wrongly purged and, 
through no fault of their own, were unable to vote. Some may 
call that a mistake, but it is impossible to ignore that there 
exists a well-financed, highly strategic effort to 
disenfranchise voters. That is what we're up against.
    Black people's experiences of voter suppression have always 
been the proverbial canaries in the coal mine. If we don't pay 
attention to those experiences, if we don't correct them, we 
are at risk of losing our democracy for everyone.
    And all of that was true before COVID-19. We are now facing 
a perfect storm of circumstances that will make it harder than 
ever for people to vote.
    But in the lead-up to November 3, we have an opportunity to 
move forward with new strategies and innovations that make 
voting easier and more fair. Many states are already taking 
action; we need others to follow their lead. As members of this 
select subcommittee, I believe there are three things you can 
do to help states meet the challenges they're facing.
    First, you can make your voices louder than the voices of 
leaders who disparage voting by mail while voting by mail 
themselves. You can tell the American people that using these 
and other mechanisms to vote is not fraud; it is their right.
    Second, you can appropriate more money to states for 
election administration so that states can hire poll workers, 
run polling sites safely, and buy sorting and counting 
machines. The $400 million authorized under the CARES Act was 
critical, but the nonpartisan Brennan Center for Justice 
recommended in April that Congress make at least $4 billion 
available.
    And, finally, many of you have paid tribute to Congressman 
John Lewis since his passing. I believe the single best way to 
honor Congressman Lewis's legacy is to continue to fight for 
the expansion of the Voting Rights Act.
    In closing, I'd like to speak directly to American voters. 
I know that this is a time of great uncertainty, and you may 
wonder how best to make your voice heard at this moment. Voting 
is how you make your voice heard in these halls of power. I can 
tell you that there are more options than ever to cast your 
ballot. It is so important that you vote, that you vote early, 
that you encourage your friends, family, and neighbors to vote 
early as well. That is how we fight voter suppression--by 
exercising our right to vote and voting for representatives who 
represent our best interests.
    Today, I am here asking our Representatives in Congress to 
do everything in their power to make our elections safe and 
secure, but we also need to do our part. We cannot sit this one 
out. So, please make a plan. Do not wait until November. Your 
vote matters. You matter.
    Thank you again.
    Chairman Clyburn. Thank you very much, Ms. Washington.
    Ms. Clarke, you are now recognized.

STATEMENT OF KRISTEN CLARKE, PRESIDENT AND EXECUTIVE DIRECTOR, 
         LAWYERS' COMMITTEE FOR CIVIL RIGHTS UNDER LAW

    Ms. Clarke. Chairman Clyburn, Ranking Member Scalise, and 
members of the House Select Subcommittee on the Coronavirus 
Crisis, my name is Kristen Clarke, and I serve as the president 
and executive director of the Lawyers' Committee for Civil 
Rights Under Law. Thank you for the opportunity to testify on 
actions that must be taken to ensure a successful general 
election during this pandemic.
    The Lawyers' Committee for Civil Rights Under Law has been 
at the forefront of the battle for equal rights since its 
founding in 1963 at the request of President Kennedy to enlist 
the private bar's leadership and resources in combating racial 
discrimination. Simply put, our mission is to ensure equal 
justice under the rule of law.
    We've been a leader in many of our Nation's most seminal 
voting rights battles, and we also lead Election Protection, 
the Nation's largest and longest-running nonpartisan voter 
protection program, anchored by the 866-OUR-VOTE hotline. Since 
March, we have filed close to two dozen lawsuits to protect the 
right to vote amid the pandemic.
    I'm here to sound the alarm about the dangers we face as a 
democracy should we fail to fully confront the barriers that 
millions face amid the pandemic. Nearly 200,000 Americans have 
lost their lives. A disproportionate number of them are Black, 
Latino, and elderly. And the primary season makes painfully 
clear that many states are simply not ready for the general 
election. States need resources, guidelines, and crucial 
reforms to get this right.
    In Milwaukee, voters turned out in homemade face masks and 
plastic garbage bags. In Georgia, thousands endured painfully 
long lines because of poll sites that opened late. In Texas and 
Florida, we saw severe poll-worker shortages as vulnerable 
older Americans declined to serve.
    Bold action by Congress and state officials is needed right 
now to pull voters back from the brink of disenfranchisement.
    We urge Congress to provide the $3.6 billion in funding 
needed to ensure that states have the resources necessary to 
conduct this election. Many are in a state of fiscal distress. 
The calls for this funding have been bipartisan, and it's 
needed to address poll-worker shortages, to ensure PPE at 
polling sites, to retain equipment and personnel to process 
historic numbers of absentee ballots, and more.
    We also need Congress to fund the U.S. Postal Service so 
that they can handle the millions of vote-by-mail ballots 
expected this season. We have sued the Postal Service over 
grave concerns regarding 11th-hour policy changes made under 
Postmaster General Louis DeJoy's watch.
    As we know, ongoing congressional oversight is critical 
too. Given inaction at the Justice Department when it comes to 
voting rights, we need Congress to set baseline protections for 
states. At this stage, all states should be providing no-excuse 
absentee voting, at least two weeks of early voting, and 
meaningful in-person voting options on election day. But many 
officials have failed to adequately respond to the pandemic or 
lack the resources to do so.
    Sadly, Georgia is the poster child for this dysfunction, 
which has led to wide-scale disenfranchisement, especially of 
Black voters. Last-minute polling changes, poor staffing, the 
use of an out-of-state vendor who made multiple errors in the 
handling of absentee ballots, voters who just never received 
their absentee ballots have all riddled the Georgia primary. We 
called for poll hour extensions, and several counties have sued 
to secure an extension in Gwinnett County. We don't need a 
repeat of this in November.
    Similarly, in Wisconsin, thousands of voters didn't receive 
their absentee ballots. And the problems were especially acute 
in Milwaukee, where poll sites were reduced from 180 to 5, 
leaving voters standing in lines for hours without the ability 
to socially distance.
    Unfortunately, these challenges are not isolated; they are 
widespread and systemic. In response, the Centers for Disease 
Control and Prevention issued commonsense guidance for states 
that aligns with the recommendations of the civil rights 
community.
    We applaud those states have already taken action to 
protect the right to vote during this pandemic by eliminating 
barriers to voting by mail, putting in place drop boxes that 
provide opportunities for returning ballots, extending early 
voting days, relaxing deadlines, hiring the next generation of 
poll workers, investing in new election infrastructure, and 
providing voter education so that voters know their options and 
their rights. But some states have not yet implemented those 
recommendations, and we urge that they do so immediately.
    The right to vote is the bedrock of our democracy. Twelve 
days ago, I stood at the Lincoln Memorial to commemorate the 
1963 March on Washington. The tie that binds those who attended 
this march and citizens all across our country is a profound 
belief in the power of having your voice heard by your elected 
officials.
    While our Nation confronts a perfect storm resulting from 
an unprecedented pandemic, distress resulting from ongoing 
police and racial violence, we must ensure that all Americans 
have voice at the ballot box this season.
    Thank you.
    Chairman Clyburn. Thank you very much, Ms. Clarke.
    We now turn to Ms. Marziani.

   STATEMENT OF MIMI MARZIANI, PRESIDENT, TEXAS CIVIL RIGHTS 
                            PROJECT

    Ms. Marziani. Thank you. Good afternoon, Representative 
Clyburn, Ranking Member Scalise, and other members of the 
subcommittee. It is a great honor to be here with you today.
    I also deeply appreciate the good work and public service 
of my fellow witnesses. Thanks to all of you as well.
    So, I am the president of the Texas Civil Rights Project, 
and I have been asked update this subcommittee on the 
preparations of the state of Texas for the November election 
given the ongoing threat of COVID.
    Unfortunately, and as detailed in my written testimony, 
state officials are failing to fulfill their obligation to 
Texas voters. They're forcing too many Texans to choose between 
our safety and our sacred right to vote.
    Even worse is that Texas and Texans will not be equally 
impacted by these choices. Instead, our Black and LatinX 
communities, who are already struggling to beat back higher 
rates of COVID infections, will bear the brunt of this 
suppression.
    So, I want to highlight two key areas where Texas has 
bucked guidance from CDC and other experts.
    First, Texas has fought tooth and nail against any 
expansion of voting by mail. Today, Texas is one of just six 
states that has failed to open up remote voting options even 
after multiple lawsuits and reprimands from both state and 
Federal judges.
    Only a lawyer can love the Texas Supreme Court's final 
confusing word on this subject. The court told us that every 
voter must decide for herself if she is eligible to claim a 
disability under existing laws. Lack of immunity to COVID can 
be one criteria but not the sole criteria. Election officials 
are supposed to take the voter at her word once she checks that 
box on her vote-by-mail application affirming that she has a 
disability that makes voting in person dangerous to her health.
    So, now that the smoke has cleared from these legal 
battles, voters and election officials have been left to deal 
with the wreckage. Voters have to navigate a confusing standard 
and a clunky, decentralized system that was not built for 
pandemic-level use.
    In addition, multiple legal barriers potentially block 
mail-in ballots from being counted in Texas. This includes a 
prohibition on drop boxes, which forces voters to primarily 
rely on the overwhelmed Postal Service. This includes a 
requirement of a certified doctor's note, but only for voters 
who get sick within 10 days of election day. And this includes 
discriminatory signature matching laws that give local partisan 
ballot boards largely unfettered power to deem your signature 
invalid and to trash your ballot without even giving you a 
chance to object.
    County election officials also have to navigate this 
complex legal web while preparing for what will still be a 
surge of voting by mail. And this is all without any help or 
guidance from the state.
    Well, that's not quite right. There's one state official 
who has been very outspoken about voting by mail. Our attorney 
general, Ken Paxton, who also serves as co-chair for the 
Lawyers for Trump organization, has repeatedly threatened to 
prosecute voters and civil society organizations for running 
afoul of these bewildering vote-by-mail rules. This abuse of 
power is shockingly inappropriate.
    Combined with the Texas Supreme Court's murky ``don't ask, 
don't tell'' standard, Paxton's threats will almost certainly 
scare away voters with serious health conditions, particularly 
voters of color, who have been targeted by his community in the 
past.
    Just last week, Paxton did, in fact, use the power of his 
office to limit mail-in voting. He sued local officials in 
Harris County to stop them from sending vote-by-mail 
applications to all registered voters in that diverse county, 
even though officials also planned to send eligibility guidance 
taken straight from that Texas Supreme Court decision.
    To be sure, Texas has taken some steps to make in-person 
voting safe and accessible, most notably by adding an 
additional week of in-person voting, and they should be 
commended for doing so. But--this is my second point--the 
state's hands-off approach to polling places and poll workers 
is not enough.
    For instance, state officials have been silent about the 
need to increase or, at the very least, maintain the overall 
number of available polling places despite CDC recommendations 
to do just that. This is particularly troubling given Texas's 
dubious track record. Since the Supreme Court's 2013 Shelby 
decision, which released Texas from any Federal oversight of 
election rule changes, Texas counties have closed at least 750 
polling locations. And, sadly but not surprisingly, the places 
where Black and LatinX populations are growing faster are just 
those places that have experienced the vast majority of these 
closures.
    And that was all before the COVID pandemic added further 
complications to confirming polling locations and recruiting 
workers.
    So, we've heard from the chairman that fewer polling places 
have already contributed to longer wait times for Texas voters. 
And those long lines we saw in Texas on Super Tuesday of up to 
seven hours in Black and LatinX communities were a danger to 
our democracy then, but now, in November, long lines could be 
deadly.
    My written testimony contains a list of commonsense 
measures the state can and should take immediately to mitigate 
these concerns. There's just barely time for Texas to step up 
during this critical moment in our history, but time is running 
short.
    Thank you, and I would be happy to answer any questions you 
have.
    Chairman Clyburn. Thank you very much.
    We now turn to Dr. Kuppalli.
    Now, Dr. Kuppalli, you're a new constituent of mine. I want 
to be sure I'm pronouncing your name correctly. Kuppalli?
    Dr. Kuppalli. Yes. Thank you.
    Chairman Clyburn. Thank you very much. You are now 
recognized.

STATEMENT OF KRUTIKA KUPPALLI, M.D., VICE CHAIR, GLOBAL HEALTH 
    COMMITTEE, INFECTIOUS DISEASES SOCIETY OF AMERICA; AND 
    ASSISTANT PROFESSOR OF MEDICINE, DIVISION OF INFECTIOUS 
         DISEASES, MEDICAL UNIVERSITY OF SOUTH CAROLINA

    Dr. Kuppalli. Thank you.
    Thank you, Chairman Clyburn, Ranking Member Scalise, and 
distinguished members of the select subcommittee, for the 
opportunity to testify before you today.
    I'm extremely grateful for your interest and commitment 
toward helping support the novel coronavirus disease efforts in 
the United States as we attempt to contain this deadly disease 
and ensure we have a free, fair, and safe election for all 
citizens on November 3.
    On behalf of the Infectious Diseases Society of America, I 
worked closely with the Brennan Center for Justice on joint 
``Guidelines to Inform Healthy In-Person Voting,'' which I will 
discuss today.
    With over 40,000 cases of coronavirus a day across the 
United States, we must take bold steps to break chains of 
human-to-human transmission to improve the health of our 
population and economic recovery of our country. The more we 
strengthen our national response to coronavirus now, the less 
risk of transmission we will face on election day.
    Specifically, I recommend the following options. The 
Federal Government should institute a national mandate 
requiring the use of masks or face coverings; expand testing 
and contact-tracing capacity; increase the supply of personal 
protective equipment; address health disparities; and provide 
support for individuals in isolation and quarantine, including 
sick leave, food, and access to medical care.
    In this era of COVID-19, personal health concerns have the 
potential to skew voter participation unless we provide viable 
alternatives to a single day of in-person voting. Additional 
options should be made available, including mail-in voting; 
earlier, longer voting; more polling locations; ballot drop 
boxes; and/or curbside voting.
    For those individuals who will prefer or need to vote in 
person, the following recommendations are based on evidence 
from science and public health to minimize risks.
    First and foremost, a uniform, evidence-based public health 
message about what voters should expect at polling sites is 
critical. Messaging should emphasize that hand hygiene, 
physical distancing, and face masks that cover the nose and 
mouth are important in preventing the transmission of 
coronavirus.
    When establishing and selecting polling locations, election 
officials should consider the following. First and foremost, 
polling locations should have face masks and hand sanitizer 
available to everybody. To avoid overcrowding, the number of 
polling locations should be increased. Polling locations should 
be relocated from nursing homes and senior-living facilities to 
protect older adults who are at greater risk for coronavirus. 
Polling locations should be relocated to large, well-ventilated 
areas that can accommodate the necessary physical-distancing 
measures between individuals, voting booths, and poll workers. 
There should be plans to minimize lines, and there should be 
unidirectional flow into and out of the polling location with a 
limited number of entrances and exits.
    Prior to opening a polling site, it should be cleaned with 
an EPA-approved disinfectant. Special attention should be given 
to high-touch surfaces, such as voting booth surfaces, and 
cleaned at least once every four hours. There should be 
plexiglass barriers between poll workers and voters. And people 
should be given disinfectant wipes so they can sanitize the 
voting booth surfaces. Where possible, voters should be 
provided with disposable pens, pencils, or other devices to 
mark their ballots. And all polling locations should have 
adequate supplies to support healthy hygiene.
    There are actions individual voters should take as well to 
minimize the risk of COVID transmission while voting. If a 
person is unable to vote by mail, they should check with local 
elections officials for alternative voting options in their 
area. Voters should verify their registration, polling 
location, and special requirements prior to presenting to the 
sites. They should fill out a sample ballot prior to election 
day to make in-person voting time efficient. They should use 
hand sanitizer in each step of the voting process. And they 
should arrive to the polling location alone, early, and be 
prepared to wait. However, they should try to vote during an 
off-peak time, such as the midmorning.
    We know that despite our best attempts there will be sick 
individuals who present on election day. For these people, 
alternative voting options should be provided to minimize the 
exposure of voters and poll workers to coronavirus. This should 
be a designated polling site or curbside voting. And we should 
also consider having onsite testing available for sick 
individuals who want it.
    Crucial for the success of election day is the recruitment 
of poll workers. Wide-scale campaigns to recruit poll workers 
should be scaled up, and jurisdictions should recruit extra 
poll workers, especially from lower-risk populations. All poll 
workers should be provided and trained in how to appropriately 
don, doff, and use PPE. And individuals concerned about their 
personal risk of coronavirus as a poll worker should consult 
their healthcare provider.
    After election day, there should be expanded testing for 
voters and poll workers to identify outbreaks associated with 
voter locations.
    The current pandemic is an unprecedented event in our 
lifetime. A free, fair, and safe election can be achieved with 
bipartisan support for more resources and an evidence-based 
approach to the voting process. We encourage local elections 
officials to work closely with public health and infectious 
diseases experts to proactively develop an election plan.
    No one should have to choose between the right to vote or 
to be healthy. We have the evidence, knowledge, and science to 
keep our public safe, and we must use it, because one new 
infection is one too many.
    Thank you again for the opportunity to testify, and I look 
forward to answering your questions.
    Chairman Clyburn. Thank you very much, Dr. Kuppalli.
    Finally, we will hear from Secretary Ashcroft.
    Secretary Ashcroft, you are now recognized.

     STATEMENT OF JAY ASHCROFT, MISSOURI SECRETARY OF STATE

    Mr. Ashcroft. Thank you, Chairman Clyburn, Ranking Member 
Scalise, and distinguished members of this subcommittee, for 
the opportunity to virtually join you today for this important 
discussion regarding coronavirus and its effect on the November 
2020 general election.
    I'd also like to thank the other witnesses. And though I 
didn't think to put it in my comments when I was trying to 
hurriedly do them last night as I was traveling, I want to 
especially thank the staff for the work they must have done. 
I'm sure that, both on the minority and the majority side, 
there were staffers that worked over their vacation time to do 
this over this weekend and set this up, and I really appreciate 
their hard work.
    I'd also like to thank Congressman Blaine Luetkemeyer, who 
is my Representative in the U.S. House of Representatives.
    My name is Jay Ashcroft. It my privilege and honor to serve 
as Missouri's 40th Secretary of State. As Secretary of State, I 
am the designated chief election officer for the state.
    In 2020, Missouri election officials have already held 
three successful elections since COVID-19 became a concern: the 
Presidential preference primary in March, local municipal 
elections that were postponed from April to June, and the 
August primary election.
    Missouri's elections are administered by our 116 local 
election authorities, who are elected or appointed and make all 
logistical decisions in their election jurisdiction. This 
includes the number of polling places needed, the number of 
poll workers, how many face shields, face masks, tables, 
chairs, or bottles of hand sanitizer are needed.
    My office assists whenever possible. In fact, during two 
weeks in May, I drove more than 5,000 miles and visited every 
one of Missouri's election officials to distribute more than 
17,000 face masks, 17,000 face shields, 40,000 distancing 
strips, and more than 500 gallons of hand sanitizer.
    By all accounts, our local election officials have done a 
wonderful job sanitizing polling places and voting areas, 
promoting physical distancing, and looking for creative 
solutions to improve the flow of traffic through polling 
places.
    Other states may have had difficulties with having adequate 
polling places, but that has not been a problem in Missouri. 
Some of our election officials have actually increased the 
number of polling places, and others have moved to larger 
facilities to provide for better flow of foot traffic and 
provide adequate space for physical distancing.
    Missouri election authorities have promoted curbside 
voting, and some have even tested the logistics of drive-
through voting. People could vote from their car. I have been 
impressed with their forethought and their commitment to 
ensuring the health of voters and poll workers alike.
    Voting in person is safe.
    I've paid particular attention to stories related to the 
Wisconsin Presidential primary held on April 7, during which 
Milwaukee election officials reduced the number of polling 
places from 180 down to 5. One study appearing in the Journal 
of Infectious Diseases and Epidemiology examined the rate of 
COVID transmission in the days following that election. In 
fact, the data showed a decrease in COVID infections in the two 
weeks following the election. And I'm not saying that voting is 
a prophylactic for COVID, but that's what the data showed: that 
there was no increase.
    In addition to delivering health and safety equipment 
directly to election officials across the state, in 2018 I 
proposed amending state law to reduce the reliance of Missouri 
voters on the U.S. Postal Service. I asked lawmakers to allow 
voters to allow an email of their absentee-ballot request 
instead of having to mail it in. And I asked them to move the 
deadline to request an absentee ballot earlier by one week to 
reduce the likelihood that Postal Service issues would affect a 
person's right to vote. Thankfully, those changes were passed 
and signed into law.
    That said, I have very sincere concerns about promoting the 
use of mail-in ballots. It's not a perfect system. What we see 
in Missouri and nationally is, in every election, at least 2 to 
3 percent of ballots received by mail are rejected. Perhaps the 
voter completed the ballot envelope incorrectly or the voter's 
signature didn't match. Maybe the ballot scanner didn't 
properly read the ballot. For every 50 mail-in ballots cast by 
voters, at least 1 of them, statistically, doesn't count. For 
every 50 of those voters, 1 of them is disenfranchised. I will 
continue to encourage people to vote in person. It's safe, and 
it guarantees that your vote will count.
    Elections matter. Votes matter. Each one that is cast 
should be counted. In nearly every election, there is an 
instance in which a candidate won by only a few votes. We have 
seen this in Missouri, notably in Kansas City in 2010 in a race 
for state legislature. We've seen blatant absentee-ballot fraud 
in St. Louis in 2016, so much so that a judge ordered a second 
election, which changed the outcome of the election.
    I can't speak for any state other than my own, but in 
Missouri we have proven three times in 2020 that, with 
precautions in place and cooperation from voters, we can have 
successful, safe, in-person voting on election day. I encourage 
voters in Missouri and elsewhere to protect the integrity of 
America's elections and make their voices heard on election 
day.
    Thank you very much for the opportunity to speak with you 
today.
    Chairman Clyburn. Thank you very much, Secretary Ashcroft.
    And thanks to all of our witnesses here today.
    We are now going to move into a period of questions and 
answers. Each member is going to be recognized for five minutes 
to ask questions and receive answers. And we will begin by me 
yielding myself five minutes.
    Now, many voters are expressing tremendous fear. I hear 
from them every day, and I'm sure many of you do as well. Some 
states do better with masking and social distancing than 
others. We know about the fear and the discouragement that a 
lot of people received during the primary season when they 
found out at the last minute that their polling places had been 
closed. And, of course, a lot of suppression tactics are being 
used. In fact, I think it was the Fourth Circuit Court of 
Appeals in a North Carolina case that said that they performed 
``with almost surgical precision'' in carrying out their 
suppression.
    Now, Ms. Washington, you have spoken directly with voters 
in communities of color to encourage them to vote. What 
concerns are you hearing from voters? And what is your message 
today to voters who are wondering how they can vote safely?
    Ms. Washington. Thank you, Chairman Clyburn.
    Yes, I have spent time in Michigan and Virginia and in 
quite a few places in our country, and I think in this 
environment what voters want to know is what opportunities they 
will have to vote and whether their votes will be counted.
    Of course, it varies from state to state, as we've all 
talked about, but, no matter where you live, voters should have 
safe options to vote and be educated on what those options are.
    I would say to voters today that I am doing my part by 
being here speaking with the committee; the committee, you're 
doing your part by listening and hopefully taking action; and 
so, voters need to do our part as well. Voters need to check 
registration status, find out what the deadlines are in their 
particular states, figure out whether early voting is an 
option, and then make a plan to vote.
    And, if I may add, a really helpful way to do all of that 
is visiting vote.org. It is a nonpartisan website that tells 
voters everything they need to know about how to vote.
    Chairman Clyburn. Thank you, Ms. Washington.
    I noticed you mentioned Michigan and Virginia, but, if my 
memory serves, I think your roots are in Beaufort County, South 
Carolina.
    Ms. Washington. Yes, sir. That's correct.
    Chairman Clyburn. You're welcome to come and help there as 
well. In fact, your uncle was my debate coach at South Carolina 
State. So, I think you can do us a whole lot of favors by 
coming back to your roots and help encourage voters here in 
South Carolina as well.
    Let me ask, though, of Ms. Clarke, what should state and 
local officials be doing now to ensure that voters are not 
disenfranchised in November?
    Ms. Clarke. We need to not repeat the mistakes from the 
primary season, and we should take lessons that we learned from 
the primary season to ensure a successful general election in 
November.
    In short, we want to ensure that we're providing three 
avenues to the ballot for voters this season:
    One, we want streamlined, accessible vote-by-mail. We want 
postage-paid envelopes to voters. I applaud those states that 
are making this process easy by automatically mailing absentee 
ballots to registered voters.
    In addition to streamlining the absentee-ballot process, we 
want at least two weeks of expanded in-person, early voting. We 
know that for many voters in our country, particularly for 
Black voters and voters of color, the experience of voting in 
person is deeply important. So, having expansive early voting 
opportunities is critical.
    And if we get all that right, then we'll ease the burdens 
that election officials face on election day itself. We want an 
election day where voters are not subject to long lines. We 
want to ensure that they're able to socially distance. We want 
to ensure that they know where to vote, given many of the last-
minute polling-place changes this season.
    If I can, Congressman, I'm sharing an image from Atlanta 
during the primary season. This was a long line outside of Park 
Tavern in Atlanta on June 9. These are voters who waited for 
hours to cast their ballots. We don't want a repeat of that 
this season, which really--it encourages us to get it right by, 
again, providing expansive early voting opportunities and 
getting vote-by-mail right.
    Chairman Clyburn. Thank you for that.
    Secretary Ashcroft, I noticed you mentioned that the 
legislature responded very positively to your suggestions about 
how we might enhance early and absentee voting. Did you all use 
any of the money--well, I think $400 million of CARES--to help 
support that?
    Mr. Ashcroft. We took about half of the money that we 
received with the latest CARES Act money to go directly with 
grants to local election authorities to use however they 
thought was best to help with their election, with making sure 
that they had PPE, plexiglass shields, more poll workers, to 
increase poll-worker pay so we wouldn't have to reduce polling 
places.
    And then we've held back about half of it to pay for the 
cost of the increased use of absentee and mail ballots so that 
our local election authorities don't have to bear that burden, 
so that we can bear that for them, because we expect more 
people to utilize non-in-person voting, sir.
    Chairman Clyburn. So, you would say that you all were able 
to carry out these new procedures at no cost to the state?
    Mr. Ashcroft. Sir, there is some cost to the state. There 
is a match of 20 percent on the CARES funding. But we have not 
seen it as being an insurmountable burden to us. Missouri 
doesn't need more Federal funding. And if we were to get more 
Federal funding now, we wouldn't be able to use it well, 
because we don't have enough time to implement any sort of 
changes that would do that.
    What the Congress could do, if they wanted, is maybe make a 
commitment to backstop if there are overages of costs for 
states that we don't foresee now after the election, sir.
    Chairman Clyburn. Thank you very much.
    My time has expired.
    Mr. Ranking Member, you are now recognized for five 
minutes.
    Mr. Scalise. OK. Thank you, Mr. Chairman.
    And I first want to start by thanking all of the poll 
workers. You know, every time I go to the polls, we all, as we 
vote, we get to know our poll workers. They're usually our 
neighbors. And they come in early, and whether you're a 6 
o'clock-in-the-morning-until-8 o'clock-p.m. state, whatever the 
hours are, they work those long hours to help us carry out this 
great democracy that our country enjoys.
    And there's been--for years, we've seen a shortage coming. 
I know our Secretary of State has talked about this in 
Louisiana, maybe other states too, where it seems like some of 
the poll workers that are getting older, there aren't as many 
younger people coming in. So, maybe we can also encourage 
people to become poll workers, because that is something we've 
had an issue with for years now.
    But I want to thank those poll workers who have done this 
year-in and year-out and will be doing this again in November 
and make sure we give them all the safety protocols that they 
need.
    I want to start with Ms. Washington, because I don't know 
if she knows it or not, but she and I actually are linked 
together in history. We both had roles in the movie ``Ray,'' 
which was filmed in Louisiana.
    Ms. Washington. That's right.
    Mr. Scalise. I think her role might have been a little more 
prominent than mine. We're both listed in the credits. But 
congratulations. Jamie Foxx, I got to work with him for a few 
days. He won the Academy Award and did a great job, and so did 
you.
    So, thank you for coming to Louisiana and being a part of 
making that movie and for the work that you do to encourage 
people to vote. I think it's important. However people are 
going to vote, we all should be encouraging people to exercise 
the right to vote.
    And, in each state, they give you multiple options, and 
those options are there for important reasons. They're debated 
heavily in state legislatures, and then they're worked so that 
a Secretary of State can actually carry that out properly.
    So, I think we need to do everything we can to encourage 
people. There's never been more opportunities to go legally 
vote and exercise your right to carry out this franchise that 
our country is built upon.
    So, thank you for the work that you're doing there, Ms. 
Washington.
    Ms. Washington. Thank you. And thank you for your acting 
expertise.
    Mr. Scalise. You've done a little better than me there in 
that regard.
    I want to ask Mr. Ashcroft, I know you've been Secretary of 
State there in Missouri, carrying out the job that all 
Secretaries of State do so well. Kyle Ardoin, the Louisiana 
Secretary of State, I've had a great working relationship with 
him, and as he has needed things through the years, but 
especially through COVID, we've worked as well too. And I'm 
sure you work with Blaine Luetkemeyer and other members of your 
delegation.
    In terms of the things that you need to carry out a safe 
election in this environment--I would imagine you've had 
experiences with primaries during these last few months--what 
are the things you've seen that work really well?
    And you've been the head of the Secretary of States 
Association, I think, on the Republican side, so you hear 
stories from other members too. What are you hearing from 
Secretaries of State, things that they need to do to make sure 
that we can have that in-person opportunity just as well as the 
other early voting options that there are for people?
    Mr. Ashcroft. You know, as an engineer, it's just a 
logistical exercise. How do you get people to a location, their 
votes to a location, give them time to mark them, and then 
securely count them?
    We follow the guidelines of the CDC to give people space, 
to have extra poll workers, to have large polling places, to 
remind people to keep their distance. We've reached out to 
manufacturers as to how to disinfect their equipment, and we've 
used one-time pens and that sort of thing.
    It's common sense.
    Mr. Scalise. Yes.
    Mr. Ashcroft. It's everything your mama told you.
    Mr. Scalise. Good. All those CDC guidelines that we talked 
about earlier, these guidelines from CDC that they've put out, 
I think some of the things you just mentioned.
    And now I want to bring you to the other point that is a 
big concern of a lot of people, and that is the integrity of 
the vote. Because as any of us vote, as we encourage everybody 
who is legally eligible to vote, if somebody does cast a ballot 
illegally, it undermines the integrity of our vote.
    Mr. Ashcroft. Yes.
    Mr. Scalise. And I think that's the other part of this that 
we can't just ignore. I know some people try to minimize it or 
say it doesn't happen. We know it happens. I mean, there are 
cases. New York, just last year, people bribed nonresidents to 
falsely register and vote. In Pennsylvania, you had an 
individual who was picking people up and convinced them to fill 
out applications for deceased people. In Maryland, a noncitizen 
was found guilty of voting in multiple--10 different Federal 
elections. On and on we see these kind of stories.
    So, rooting out voter fraud is important. Making sure that 
we at the Federal level don't force states to do anything that 
would undermine the integrity of their elections is important 
as well. We talked about, in my opening statement, the 28 
million ballots that have gone missing.
    In Los Angeles County, there was just a court order 
recently where they were forced to remove 1-1/2 million people 
who were on their rolls illegally--not legally--illegally. They 
wouldn't remove them. The court made them remove them. Because 
if you've got that opportunity for fraud, it happens.
    What have you seen, especially with other Secretaries 
you've talked to?
    Mr. Ashcroft. We see vote fraud occur from people paying 
people to register, paying people to vote, to people changing 
absentee ballots in midstream.
    We had a state house race where we had to have a new 
election four years ago in the city of St. Louis, where a judge 
looked at all the evidence of fraud and allegations that people 
had voted when they said they hadn't, overturned that election, 
and the election was totally different when it was done 
correctly, and a different individual won.
    Mr. Scalise. Well, thank you for that.
    Mr. Chairman, I yield back the balance of my time.
    Chairman Clyburn. Thank you very much.
    The chair now recognizes Ms. Waters for five minutes.
    Ms. Waters. Thank you very much, Mr. Chairman. I'm so 
pleased that you're holding this hearing today. It is so 
important that we put as much time and effort into encouraging 
people to vote and encouraging them to have options.
    So, in June, the CDC issued guidance for preventing the 
spread of COVID-19 during elections. The CDC recommended that 
state and local election officials, quote, ``offer alternative 
voting methods that minimize direct contact and reduce crowd 
size at polling locations,'' quote/unquote.
    Voting by mail is the safest option for avoiding the 
substantial health risks associated with in-person voting 
during this pandemic. Several jurisdictions are already 
prepared to accommodate widespread voting by mail. For example, 
this fall, my home state of California will mail every 
registered voter a ballot.
    Based on lessons learned from expanded mail-in voting 
during the March primary, California has implemented a 
statewide tool to allow voters to track their mailed ballot and 
receive notifications about its status, including whether there 
are any issues that need to be resolved. Additionally, 
California counties will have more time to process mail-in 
ballots and ensure an accurate count.
    So, I'm so pleased that my friend Ms. Kerry Washington is 
here today. Ms. Washington, a resident of California, has 
always given her time and her effort whenever she's been called 
on, not just now, encouraging people to vote and talking about 
the alternatives and insisting on people having alternatives. 
Whenever we have called on her in our communities to assist us 
in any way, she has been so generous.
    And I want to thank you, Kerry, for being here today. It's 
so good to see you.
    Ms. Washington. Thank you. You as well.
    Ms. Waters. Now, many states, like California, have 
sensibly decided to expand voting by mail during the pandemic. 
Some states have implemented policies that deny millions of 
voters the opportunity to vote by mail and thereby protect 
themselves and their families from exposure to coronavirus.
    So, I want to move to Ms. Marziani.
    Can you describe some of these policies in your home state 
of Texas that limit mail-in voting and the effect that these 
policies will have on voter equality of the states to safely 
exercise the right to vote during this pandemic?
    Ms. Marziani. Absolutely. Thank you so much, Congresswoman.
    So, as I noted in my oral testimony and my written 
testimony, there has been a multi-month battle in Texas around 
voting by mail and who is eligible.
    Going into COVID, Texas was one of the very few states that 
required an excuse to vote absentee by mail. Then, of that 
small subset, most other states expanded the eligibility 
requirements. Texas, as I said, fought us and other 
organizations in court and refused to do so. And so, today, we 
are left with a really murky standard for voters to try to 
administer themselves.
    Then on top of that, as I said, we have the really 
inappropriate situation of our Attorney General threatening 
prosecution of voters for running afoul of unclear, complicated 
rules.
    And on top of that, you have the state pretending as if we 
are not going to see an increase in vote-by-mail. We saw a 100 
percent increase in some counties in our primary runoff 
elections in July in voting by mail, but the state has not 
issued any best practices to the counties, has not--we have a 
patchwork of vendors, for instance, in different counties. Some 
counties are, as I understand, using their own printers, for 
instance, to try to process these things.
    What it means is we are about to layer on top of, you know, 
some bad law to start with--I mean, I actually agree with the 
Honorable Secretary Ashcroft in saying that, yes, there are a 
lot of holes in vote-by-mail that already existed. And we 
failed to fix those holes, we layered on top a new confusing 
standard, and then we layered on top of that a surge in vote-
by-mail that we know is coming but we haven't done anything to 
deal with it, and it creates----
    Ms. Waters. Thank you.
    Ms. Marziani [continuing]. A bad scenario. Yes.
    Ms. Waters. Thank you so very much.
    I want to remind us that President Trump has repeatedly 
tried to undermine public confidence in mail-in voting by, 
among other actions, falsely claiming it will lead to 
widespread fraud and abuse. This is, to put it mildly, 
nonsense. According to an analysis by MIT, over the past 20 
years there have been only 204 cases of absentee ballot voter 
fraud, out of 250 million votes cast by mail.
    Ms. Clarke, are you aware of any evidence to support the 
President's claims of widespread voter fraud with mail-in 
voting?
    Ms. Clarke. Thank you, Congresswoman.
    It is notable that President Trump himself just recently 
voted absentee in the state of Florida. His wife has voted 
absentee. Ivanka and Jared Kushner have voted absentee. 
Attorney General Bill Barr has voted absentee.
    And absentee voting dates back to the 19th century in our 
country, when we allowed people during wartime the opportunity 
to cast their vote by mail.
    I've seen similar studies that----
    Chairman Clyburn. Thank you, Ms. Clarke.
    Ms. Clarke [continuing]. It's 143 ballots over 20 years. 
You know, that amounts to .00006 percent of fraud.
    We should not be disenfranchising millions of Americans, 
given our country's long track record of success that dates 
back to the 19th century in allowing Americans to have their 
voice heard by voting by mail.
    Ms. Waters. Thank you.
    Chairman Clyburn. OK. Thank you very much.
    The gentlelady's time has expired.
    The chair now recognizes for five minutes Mr. Luetkemeyer.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    And welcome to my good friend, Secretary of State Ashcroft. 
Great to see you.
    Today's hearing topic is very interesting and, quite 
frankly, very telling. Right after the Select Subcommittee on 
the Coronavirus was formed, the Republican members asked the 
chairman to hold a hearing on the origin of the virus, which of 
course is China, and the actions that allowed the virus to 
spread to the rest of the world. However, we were told the 
Select Subcommittee on the Coronavirus somehow lacks a mandate 
to review the origin of the virus.
    Fast-forward a couple months, and a subcommittee that is so 
strictly limited that it lacks even the ability to discuss 
where the virus came from now has jurisdiction over elections. 
If there ever was a question as to whether this committee is 
100 percent politically focused, today's hearing is making that 
crystal-clear.
    This is not about election security, but about my 
colleagues on the other side's attempt to spread fear and sow 
doubt in the results of this year's elections before a single 
vote has been cast. It's about spreading misinformation, 
conspiracy theories, and manufactured crises ranging from the 
supposed sabotage of the Postal Service to the dangers of in-
person voting--dangers that apparently don't exist at violent 
protests or high-end hair salons.
    On a positive note, I am pleased again to welcome Secretary 
Ashcroft from my home state and discuss the success he is 
experiencing with voter participation and election integrity. 
Under his leadership, Missouri has strengthened voter ID laws 
while experiencing record voter turnout. More Missourians are 
voting, and they're doing it safely and in person.
    Secretary Ashcroft, you mentioned in your testimony that in 
the March 2020 Presidential primary Missouri saw a 16 percent 
increase in voter participation, the highest amount the state 
has ever had with an incumbent President on the ticket. Was 
this due to an expansion of mail-in ballots?
    Mr. Ashcroft. No, it was not. It was participation of 
individuals feeling safe to vote in person.
    Mr. Luetkemeyer. Many of the members of this committee say, 
if you increase election security, you suppress voters. Of 
course, that's not the case in Missouri. Will you discuss what 
the 2016 voter ID law did for voter participation?
    Mr. Ashcroft. Yes. In 2016, the people of the state passed 
a constitutional amendment to allow a photo ID to be required 
for voters.
    Since that law has been passed in Missouri, we provide free 
photo IDs to individuals that need them, along with the 
underlying document, and we no longer have people being turned 
away when they vote because they can't prove their identity. 
Every election, we have at least a handful of people that 
would've been turned away under the old law, but now they're 
allowed to vote, and their vote counts.
    Mr. Luetkemeyer. One of the things that--mail-in ballots, 
it seems that there's an increase in the number of folks that 
participate that way. Do you believe that this will cause a 
delay in the election results?
    Mr. Ashcroft. It is entirely possible. We are doing 
everything that we can to stop that delay from occurring, but 
they have to--they take more time to count. We could be waiting 
days.
    Mr. Luetkemeyer. And what kind of actions are you taking or 
things that you are thinking about to be able to minimize that 
delay?
    Mr. Ashcroft. We are working to make sure that we have more 
two-person teams, a Republican and a Democrat, to go through 
those ballots that are mailed in. And we're having those teams 
start at the limit, five days before the election, to start 
going through them. But, depending on what we see, we may have 
results delayed.
    Mr. Luetkemeyer. Do you believe, as the top election 
authority in our state--and, as Ranking Member Scalise 
mentioned a minute ago, you were the chairman of the Secretary 
of States organization--do you believe that, by the delaying of 
election results, that people would lose faith in the integrity 
of our voting process?
    Mr. Ashcroft. Yes, I do. And when they do that, they're 
less likely to participate. So, when we scare people 
needlessly, we cause voter disenfranchisement,
    Mr. Luetkemeyer. You know, one of the things, though--a 
while ago, there was a--I think you mentioned that there were--
that 2 to 3 percent of the mail-in votes are rejected. That 
would seem to make a pretty good case for voting in person, if 
there's a problem with the process, somehow, somewhere, 
something goes wrong in it.
    Mr. Ashcroft. We see that nationwide. The best way to make 
sure your vote counts is to vote in person. Not only do you 
have to worry about notarization or signature or sending it to 
the right place or the post office, but if there's a problem 
with your ballot, with in-person voting, you may correct it.
    Mr. Luetkemeyer. You know, one of the concerns I have--a 
while ago, Ranking Member Scalise also made a comment, there're 
378 counties that have more registered voters than they have 
citizens.
    As the chairman of that secretary group, what was the--is 
there a program in place? Are there concerns? What action, if 
any, was taken by your group to try and find a way to minimize 
that situation?
    Mr. Ashcroft. I know that individual Secretaries of State, 
at least in my party, have been working to make sure that the 
voter rolls are clean so that the experience on election day is 
as fast and easy for voters as possible.
    Mr. Luetkemeyer. Well, one last comment here. I know that--
or, I guess, a question. You know, with regards to fraud and 
mail-in ballots, I guess, in Georgia, I guess it was, they had 
about 1,000 people that had a problem with, you know, voter 
fraud--voted twice on the mail-in. Is that correct? Is that 
information you had as well?
    Mr. Ashcroft. There is always a concern with that. We had 
an election overturned four years ago, where the candidate that 
supposedly lost lost by three percent, the judge looked at all 
the fraud in the absentee ballots, they held a new election, 
and the previous loser won with 75 percent of the vote.
    Mr. Luetkemeyer. You know, one of the comments that was 
made by the chair a moment ago, it's more likely to be struck 
by lightning than have mail-in fraud. I'm not sure that's quite 
right unless we have a lot of folks getting struck by lightning 
in the state of Missouri and across the country.
    Mr. Ashcroft. Maybe a lot of people get hit by lightning in 
South Carolina. I don't know.
    Mr. Luetkemeyer. With that, I yield back. Thank you.
    Chairman Clyburn. Well, I'm not going to argue with 
science. I'm just quoting the science on that. I understand my 
Republican friends sometimes have a problem with that.
    The chair now recognizes Mrs. Maloney for five minutes.
    Mrs. Maloney?
    Mrs. Maloney. OK. Can you hear me now?
    Chairman Clyburn. OK.
    Mrs. Maloney. Thank you so much, Mr. Chairman.
    This year, we should be talking not just about Election Day 
but about Election Month, since millions of Americans are 
expected to vote early.
    Many states have expanded early voting, but there is much 
more to do. Eight states still do not offer in-person, early 
voting. Only half of the states allow early voting on the 
weekend, while others offer fewer than two weeks of early 
voting or limited voting hours.
    With the pandemic still killing hundreds of Americans each 
day, CDC guidelines say election officials should, and I quote, 
``consider increasing the number of polling locations available 
for early voting and extending the hours of operation,'' end 
quote.
    Dr. Kuppalli, why is it so important for states to follow 
public health guidance and expand early voting?
    Dr. Kuppalli. Thank you for that question.
    It is really important for states to follow public health 
guidance and to have early voting. We want to limit the number 
of crowds on election day. So, by expanding early voting, this 
will allow people to vote at different times, and that will 
limit the number of lines on election day, wait times.
    We know that, with coronavirus, the duration and intensity 
of your exposure increases your risk of getting the disease. 
So, that is why we want to increase the number of people who 
have the availability to alternative methods of voting.
    Mrs. Maloney. Thank you.
    Early voting could reduce lines on election day, helping 
ensure that everyone has an opportunity to cast their ballot.
    Mr. Chairman, I seek unanimous consent to enter into the 
record an opinion by the Fourth Circuit that reducing early 
voting days in North Carolina would lead to, quote, ``longer 
lines, increased wait times, understaffed sites, and other 
problems.''
    Chairman Clyburn. Without objection.
    Mrs. Maloney. Thank you. Thank you.
    I now would like to give a very special welcome to Ms. 
Kerry Washington. I know that she's from the great state of 
South Carolina, the great state of California, but she's also 
from the great city and state of New York.
    And we are so proud of all your efforts to expand voter 
rights and participation.
    Why, Ms. Washington, are long lines on election day a 
problem? And what are you doing to help encourage voters to 
make sure that they cast their ballots?
    Ms. Washington. So, I know--thank you so much for the 
question, Chairwoman Maloney. I went to high school in your 
district.
    I know that seeing those long lines can be so exciting. It 
can be really thrilling to see so many people participate in 
our democracy. But the fact is that long lines can be 
challenging, particularly during a pandemic, because a person's 
ability to make their choice, to make their voice heard should 
not depend on their ability to wait in line.
    Some Americans are differently abled. Some can't risk 
getting sick. Some have children who are learning from home and 
they're unable to leave. Some will have to give up a shift at 
their job in order to stand in line, meaning that they wouldn't 
be able to put food on the table that evening.
    So, it's really important to support early and absentee 
voting. Americans need options, especially in this moment of 
uncertainty. The 2020 election is not going--it should not stop 
for COVID-19, and it will not. So, we need to make sure that 
voters have plenty of options to safely and effectively cast 
their ballots.
    With regard to the quote about lightning, I just want to 
point out that that was referenced from the nonpartisan Brennan 
Center for Justice. That was also referenced--that source, the 
Brennan Center, was referenced earlier by Ranking Member 
Scalise. So, it's a trusted source, that information about 
lightning and the low incidence of fraud in voting by mail.
    Mrs. Maloney. Thank you so much.
    In Texas, Governor Greg Abbott extended the early voting 
period by nearly a week, yet other states, including Florida, 
have refused to expand early voting.
    Ms. Clarke, are states doing enough to carry out CDC's 
recommendation to expand early voting time periods and hours? 
If not, what more should they be doing?
    Ms. Clarke. States are not doing enough. This pandemic has 
upended life in every respect. It's upended how we work, how we 
go to school, and it's upended our elections. And we need 
officials to do more.
    I want to talk about Congressman Scalise's good state of 
Louisiana, where African Americans have been particularly hard-
hit by the pandemic. They make up about 32 percent of the 
population but 50 percent of deaths. And while there are about 
13 days for early voting during the primary season, that number 
will actually now be reduced by almost half, just seven, for 
the general election, subjecting people to greater risk. No 
voter should have to choose between their health and exercising 
their right to vote.
    In the good state of Missouri, right now, Webster 
University is actively recruiting notaries, because there are 
certain voters who have to have their absentee ballots 
notarized in order for those ballots to count.
    In the good state of Tennessee, my organization, the 
Lawyers' Committee for Civil Rights Under Law, is suing because 
the state literally criminalizes people for the act of 
distributing absentee-ballot applications.
    There is so much more that states can do across the board 
to lift the unnecessary, restrictive, discriminatory, and 
unconstitutional barriers to the franchise that people face 
amid the current pandemic.
    Chairman Clyburn. Mrs. Maloney, your time has expired.
    Mrs. Maloney. Thank you. I yield back. Thank you, Mr. 
Chairman, for calling this important hearing.
    Chairman Clyburn. Thank you.
    The chair now recognizes Mrs. Walorski for five minutes.
    Mrs. Walorski. Thank you, Mr. Chairman.
    And thanks to our witnesses for being with us today. Very 
grateful.
    The hardworking Hoosiers that I represent want us to be 
doing real work, like holding China accountable for concealing 
the severity of the coronavirus or investigating their efforts 
to hack the heroes that are working on vaccines. Instead, we're 
here at another partisan hearing. For that, I'm extremely 
disappointed.
    Of course, every American wants a free and fair election. 
Every American that's eligible to vote should be able to vote 
and have their ballot counted, and that ballot should be 
absolutely accurate. But this notion that we need a Federal 
universal mail-in voting mandate is simply not based on 
science. It's another attempt to use the coronavirus crisis to 
receive another partisan end.
    Drs. Fauci, Birx, and Redfield have all publicly stated 
that voting in person can be done safely. Not only that, we've 
actually seen it done safely several times.
    In April, Republicans in Wisconsin insisted on allowing in-
person voting in the state's primaries. Democrats called it a 
moral atrocity. You know what happened? Despite the hyperbole 
and the doom-and-gloom predictions, numerous studies by the 
CDC, Stanford University, and others showed no surge in cases 
or deaths attributable to in-person voting in Wisconsin.
    Over the course of this pandemic, millions of Americans 
have voted in person in all of our states' primaries with no 
surge in cases or deaths, proving over and over again that 
voting in person can be done safely. And that is the science.
    If the science says in-person voting can be done safely, 
then the last thing we need is for the Federal Government to 
come along and mandate universal mail-in voting. This is an 
irresponsible scare tactic.
    Democrats have cheered as thousands of people took to the 
streets in protest, and yet those very same Democrats are 
telling everyone it's too dangerous to vote in person. You 
can't have it both ways.
    The fact is that Dr. Fauci said in-person voting carries 
the same risk as a trip to a grocery store. And I'm thinking, 
if we're talking about--if it's safe to protest, if it's safe 
to go to the grocery store, it's safe to go to Starbucks, it's 
safe to vote in person.
    I'm glad that in my home state of Indiana we have followed 
science, rejecting the mail-in voting and, instead, allowing 
early in-person voting for 28 days before the election in order 
to reduce lines and exposure. This is the Hoosier common sense 
that we need, and I am grateful that our Secretary of State, 
Connie Lawson, has stood by that to maintain our safe 
elections.
    Secretary Ashcroft, as the only witness here today that 
actually has to run an election, are you and your election 
officials in your state aware of the CDC guidelines which 
outline procedures to ensure safety when voting in person this 
November? And are all of your polling places able to operate 
under those guidelines?
    Mr. Ashcroft. Yes, we are aware of those. We disseminate 
those to our local election authorities. We give them what they 
need to meet them.
    And I just have to say, anyone that believes that every 
vote matters, if you are telling people to vote by mail, you're 
not believing that every vote matters. Because votes will be 
lost by that. If you believe every vote matters, you should 
make sure your constituents know to go vote safely in person so 
their vote will count.
    Mrs. Walorski. Well, and, Secretary, again, you're the only 
one on this panel today that's running an election. So, can you 
talk about the problems that ensue when you have the media and 
you have Democrats out there telling people that if they go 
vote in person it's going to kill them? Just from the 
experience that you've had and in that false scenario that 
they're purporting, what kind of problems does that have for 
you when you're running an election in your state?
    Mr. Ashcroft. Well, the first thing is, as an election 
authority, I want to only put out true information to my voters 
so that they can make their own decision as to what they want 
to do, because it's their vote. And it is disingenuous and 
wrong for people to say that they want to protect the right to 
vote when they're lying to people about how their vote will be 
taken care of.
    It is safe to vote in person. If you vote by mail, you have 
to worry about the post office, you have to worry about whether 
or not you filled out that ballot correctly, you have to worry 
about whether, if it had to be notarized, if it was notarized 
correctly, if your signature matched, if you accidentally voted 
twice for one line instead of for one person. You don't have to 
worry about that in person. You get a second chance. When you 
vote in person, it's safe, you can run your vote through the 
scanner, your vote has been cast, and your vote matters.
    Mrs. Walorski. I appreciate it.
    And, Mr. Chairman, I yield back my time. Thank you.
    Chairman Clyburn. Thank you very much.
    The chair now recognizes Mr. Foster for five minutes.
    Mr. Foster. Thank you, Mr. Chairman and to our witnesses, 
especially those who've highlighted the fact that voter 
suppression is a problem that is orders-of-magnitude larger 
than any concerns over potentially fraudulent voting, either by 
mail or in person.
    As many of you know, my father was a civil rights lawyer 
who wrote much of the enforcement language behind the Civil 
Rights Act of 1964. And it is great to see that the struggle 
for voter enfranchisement, which should be the battle of every 
generation, is being taken up today.
    But I'm also a scientist. And it is a scientific fact that 
it will always be safer to vote by mail from home than to vote 
in person. And the vast majority of Americans believe that that 
decision about where to vote should be a personal choice that 
should be available to all citizens.
    Now, Mr. Chairman, reports from the National Academies of 
Sciences, Engineering, and Medicine have raised concerns about 
the risk of the spread of the coronavirus through the air, as 
well as recognized that the relative contributions, for 
example, of droplet sizes in COVID-19 transmission remains 
unknown.
    So, Mr. Chair, I ask unanimous consent to enter into the 
record a Science magazine article entitled, quote, ``You may be 
able to spread coronavirus by just breathing, new report 
finds.'' Per committee rules, this has been distributed in 
advance to all members.
    Mr. Chairman, I requested putting this into the record?
    Chairman Clyburn. Without objection.
    Mr. Foster. Thank you.
    Now, the degree of increased risk from voting face-to-face 
depends on the level of community transmission, which, of 
course, depends on having competent national leadership, but it 
also depends on implementing the best practices at polling 
locations.
    So, Dr. Kuppalli, you've taken a leadership role in the 
Infectious Diseases Society of America to issue joint 
guidelines on healthy in-person voting. So, what is your 
reaction to the apparently real risk of purely airborne 
transmission of COVID-19? And what does that mean for keeping 
voters and poll workers absolutely safe at voting centers?
    Dr. Kuppalli. Thank you, Representative Foster, for that 
question.
    So, as you alluded to, you know, we're still in the early 
days of this pandemic. We are still learning a lot about the 
transmission dynamics of this disease, and so there's still a 
lot of debate in the scientific community about droplet versus 
airborne and whether or not that is the route of transmission.
    In terms of keeping people safe, we know that the best way 
to keep people safe is to decrease the rate of community 
transmission in the time leading up to the election and on 
election day. The lower the rates of community transmission 
are, the safer that people will be.
    And that will be by taking up things like good hand 
hygiene, universal face masking. We had a report come out from 
the Institute of Health Medicine that showed that, if people 
were to take up wearing face masks, that would decrease the 
rates of transmission by about 85 percent. And then taking up 
physical distancing. Those types of things are things that we 
need to do, and we need to get a national plan for in advance 
of the election.
    Mr. Foster. Yes. So, no matter what guidelines you follow, 
the probability will never be absolutely zero. This is, I 
think, just a fact. And, you know, life has risk, and that's 
real. As was mentioned previously, going to the grocery store 
has risks.
    But it's also important that people understand that their 
personal situation's very different. Someone can be young and 
healthy and yet have frequent contact with an elderly person 
who is very subject to this. That person, it seems to me, has a 
very real risk of, if they are forced to vote in person because 
of the rules of the state in question, them getting the virus 
and spreading it to someone that, because of their family 
situation, they're connected to.
    Is that pretty much, you know, a correct, unavoidable fact, 
given what we know about the transmission of this virus?
    Dr. Kuppalli. Yes, it is. Also, you know, we have to 
remember that people can spread this virus asymptomatically. We 
know that up to 40 percent of people can have asymptomatic 
infection when their virus level is the highest, and people 
feel completely fine during that time. So, everything you said 
is correct.
    Mr. Foster. Yes.
    It's also true that we must ensure that cities and states 
have the resources they need to carry out, you know, the basic 
steps to protect the health of voters and election workers. 
And, you know, Congress provided a significant down payment on 
election funds as part of the CARES Act.
    Ms. Clarke, isn't it true that every single state requested 
funding under this provision, that they thought there was an 
unmet need here?
    Ms. Clarke. Every single state requested funding, and 
funding so that they could do things like enhance vote-by-mail, 
deal with ballot printing and ballot postage, provide drop 
boxes, provide staffing to help handle the high volume of mail.
    And I actually testified at a recent hearing with an 
official from St. Louis, Rick Stream, who said that expenses 
are up in his jurisdiction and sales taxes are down, and that 
money might very well be put to use.
    So, we strongly urge Congress to provide that $3.6 billion 
so that no state can point to the lack of resources as a reason 
for disenfranchising voters this season.
    Mr. Foster. Thank you.
    And, Chairman Clyburn, I yield back.
    Chairman Clyburn. Thank you for yielding back.
    The chair now recognizes Dr. Green for five minutes.
    Mr. Green. Thank you, Chairman and Ranking Member and to 
our witnesses.
    I, too, am concerned about the topic of election security 
and safety. In addition to the usual threats, including cyber 
hacking, foreign interference, voter fraud, the coronavirus 
pandemic poses a unique challenge. However, top public 
officials, health officials, say we can conduct in-person 
voting safely and securely, as Wisconsin and Florida have 
already demonstrated.
    As was mentioned earlier, Dr. Birx has said, and I quote, 
``I can tell you, it has been safe for me to go to Starbucks 
and pick up my order. So, if you can go into Starbucks in the 
middle of Texas and Alabama and Mississippi that have very high 
case rates, then I can't say that it would be different waiting 
in line in the polls,'' end quote.
    A recent report from the liberal-leaning Brennan Center for 
Justice advises, quote, ``In-person voting can be conducted 
safely if jurisdictions take the necessary steps to minimize 
the risk of transmission of COVID-19 to voters and election 
workers.''
    Look, if you can buy groceries, you can vote in person. If 
you can buy groceries online for at-home delivery because of a 
medical condition, you can ask for an absentee ballot.
    The efforts to conflate absentee voting, where a person 
requests a ballot and a blanket--and compare that to a blanket 
mail-out of ballots to every registered voter, those are 
absolutely wrong. You can't conflate the two. There is a 
massive security difference between them. I urge my Democrat 
colleagues to stop fear-mongering and look at the facts.
    In-person voting is not only safe, it's also the most 
secure way to vote. Vote-by-mail opens up our elections to all 
kinds of vulnerabilities. In the Golden State, the Election 
Integrity Project California has said that Governor Newsom's 
vote-by-mail executive order will lead to 458,000 ballots going 
to Californians who have moved or are dead. This is a recipe 
for disaster, for fraud.
    Now, to Democrats who say voter fraud does not exist, I 
encourage you to visit the Heritage Foundation's website, which 
has a data base documenting 1,285 proven cases of voter fraud.
    Not only does voter fraud exist, but it can affect election 
outcomes. We just witnessed this in 2018 in North Carolina, in 
which the State Board of Elections unanimously ordered a new 
election in the Ninth congressional District after a political 
operative abused the process of harvesting ballots.
    In 2017, the former mayor of Eatonville, Florida, was 
convicted for coercing voters to cast absentee ballots for 
him--a ballot-harvesting scheme that won him the election.
    Or take Ohio, a swing state that is often a nail-biter. 
From 2013 to 2017, 56 elections in Ohio resulted in a tied 
vote, and 86 were decided by a single vote. And last year 
alone, the Ohio Secretary of State referred 18 cases of 
duplicate voting to prosecutors for voting twice in the 2018 
elections.
    Voter fraud is real, and it can sway elections. This 
shouldn't be a partisan issue. But, sadly, instead of 
strengthening election security, Democrats support initiatives 
like mail-in voting. Experience has shown that mail-in ballots 
have massive vulnerabilities and can be easily altered, stolen, 
or forged.
    House Democrats care more about winning the election than 
they do about election integrity. They want to centralize our 
elections under the all-powerful hand of the Federal 
Government, H.R. 1, and implement these flawed initiatives. 
This would make America's elections even more vulnerable to 
foreign interference and cyber hacking.
    In contrast to blue states like California, who play fast 
and loose with their elections, I'm proud of Tennessee and the 
steps our state has taken to protect the vote of every 
Tennesseean. We've implemented commonsense election-security 
measures, such as voter ID, proof of residence for first-time 
voters, and requirements that voters be registered in advance 
of election day. Tennessee has also announced a $1,000 reward 
to individuals who report voter fraud. It won't be tolerated in 
Tennessee.
    This effort to force California's clearly flawed system on 
Tennessee will not be tolerated either. Nowhere in the 
Constitution does it grant this body the right to tell 
Tennessee how to run our elections. If California wants to 
allow ballot harvesting and permit illegals to vote in their 
state elections, that's their business. But don't you dare try 
to tell Tennessee what we should do.
    I urge my Democrat colleagues to stop playing political 
games, to stop sowing distrust in America's institutions, and 
to stop trying to use the Federal Government to hijack state 
and local elections.
    Thank you, Mr. Chairman, and I yield.
    Chairman Clyburn. Next is Mr. Raskin.
    I will remind you, Dr. Green, I know the history of 
Tennessee when it comes to voting, and of South Carolina.
    Mr. Green. Yes, Mr. Chairman, if I could, since you 
mentioned that, that was when Democrats ran the state of 
Tennessee. That hasn't happened since the Republicans took 
over. Thank you for bringing that up.
    Chairman Clyburn. I'll have you know that I know very well 
the history of Tennessee under Democrats and Republicans, and 
the history of South Carolina. And, of course, I'd like to also 
tell you that all those people who left the Democratic Party 
because of the 1965 Voting Rights Act, that's why they left. 
Just to remind you. And they all became Republicans.
    Mr. Raskin?
    Mr. Raskin. Mr. Chairman, thank you.
    Before my five minutes of questioning, I have a unanimous 
consent request, if that's OK. Can I do it before my 
questioning?
    Chairman Clyburn. Yes, you can do it now.
    Mr. Raskin. OK. I'd like to ask unanimous consent to enter 
into the record a PolitiFact article dated June 9, 2020, which 
we've circulated to the committee. It has the title ``The 
misleading claim that millions of absentee ballots end up 
missing or in landfills.''
    This article makes clear that our colleagues' oft-repeated 
claim that 28 million mail-in ballots went missing is 
``misleading,'' quote, ``a mischaracterization,'' quote, and, 
quote, ``mostly false.'' In fact, the vast majority of, these 
ballots were mailed to voters but were simply never filled out 
and returned. As the article states, ``It's more accurate to 
refer to them as uncast or unreturned. There is no evidence 
these ballots led to fraud.''
    And I'd like to submit that for the record.
    Chairman Clyburn. Without objection.
    Mr. Raskin. Thank you, Mr. Chairman. Thanks for calling 
this hearing and thank you, especially, for the way you began 
it.
    It's amazing to me that the President, who knew that COVID-
19 was, quote, ``deadly stuff'' but deliberately suppressed the 
truth about it and said it was like the common cold and would 
just magically disappear because he didn't want to, quote, 
``create a panic,'' is now, 6 million cases later, 190,000 dead 
Americans later, trying to create a mass panic about the 
election and electoral fraud, when he is actively promoting 
election fraud and voter fraud, egging on his supporters to go 
to the polls and to illegally vote twice. And he's done this on 
numerous occasions.
    It's equally amazing to me that the President and his 
sycophants continue to try to deflect responsibility from the 
President of the United States for this unprecedented 
healthcare catastrophe and debacle by pointing at China, when 
it was President Trump who on 37 different occasions defended 
the Chinese Government, defended President Xi, defended the 
Central Committee of the Chinese Communist Party. And I've 
submitted all of those documents to this committee.
    So, Mr. Chairman, all I can say is, I'm with the minority 
members of this committee: Let's have a hearing about it. If 
they want to further disgrace and humiliate this President, who 
has brought America to its knees, by all means, let them do it. 
But this is the President who was defending the Chinese 
Government from the very beginning.
    Now, Mr. Chairman, it seems to me that our colleagues are 
also chasing a mirage. They keep talking about how we're 
demanding universal mail-in balloting. All of the states have 
already settled on their system. We live in a system of 
federalism. The states already have their laws out there.
    Let's not confuse the public. Let's try to help the states 
to deliver in these atrocious circumstances brought to us by 
the President of the United States and his supporters.
    So, Georgia told the committee that it needs 20,000 poll 
workers but a state program has so far only identified 5,000. 
Wisconsin needs 30,000 poll workers but doesn't think that it 
can make that and is provisionally planning to get help from 
the National Guard.
    I want to ask Ms. Clarke, what is being done and what can 
be done to get poll workers, especially young poll workers, to 
the polls at a time when we know the vast majority of poll 
workers are over the age of 60 and I think a quarter of them 
are over the age of 70? What can be done to help the states 
concretely?
    Ms. Clarke. It's time to recruit that next generation of 
poll workers. We've seen, this season, so many vulnerable older 
poll workers who've played their part but who've had to bow out 
because they are incredibly vulnerable under the pandemic.
    There are civic and nonprofit organizations that are 
working night and day to help recruit poll workers. But, 
frankly, if Congress did its part and allocated that $3.6 
billion to states, states could enhance the amount of money 
that they pay to poll workers and better encourage people to 
serve.
    There are efforts to encourage students to serve this 
season. But, frankly, we need Congress to do its part. Put the 
money in the hands of states so that they can do their work and 
run their elections appropriately.
    Mr. Raskin. Well, I appreciate that. The House majority 
took the position that we needed $4 billion for the states. The 
GOP opposed that. We ended up with only 10 percent of that 
figure, $400 million.
    We've continued to argue for $3.6 billion in the HEROES 
Act, but, again, the minority party continues to drag their 
feet, because they don't want to see full funding of the 
election so that everybody can go out and cast a vote and get 
their vote counted.
    Ms. Washington, I'd like to turn to you. What are you doing 
to try to encourage young people to fill the role of poll 
workers as many of the older poll workers are advised not to go 
to the polls? We know that older people are disproportionately 
vulnerable to this lethal disease.
    Ms. Washington. Thank you so much for the question. It's 
such a vital issue that requires addressing.
    I believe last week was National Poll Worker Recruitment 
Day. I was part of a really strong social media campaign, 
working with Power to the Polls, where we were able to garner 
hundreds, hundreds, hundreds of thousands of volunteers.
    So, we are really, really committed to the idea of having 
more people work at the polls, young people. And I think it's 
exciting not only because younger people have a different risk 
level when it comes to the coronavirus, but, also, we know that 
when people volunteer or, in many cases, get paid to work at 
the polls--so that's extra incentive that people need to know 
about, that you can be paid to work at the polls--that when 
people get involved as poll workers, their investment in their 
democracy increases. They feel the excitement and power.
    Mr. Raskin. Thank you.
    And then, Ms. Clarke, I want to ask you finally, a lot of 
our overseas uniformed people in the military, their votes are 
counted late because they come in from overseas. And yet, it 
seems like the next rush within the Trump push is to say only 
the ballots count that are cast on election day, at the same 
time that they are trying to prevent the counting of ballots 
that are cast early.
    What is the importance of making sure that we understand 
that election day is basically halftime and that in democracy 
we count every ballot that is cast, including from our military 
people overseas, who I know the President considers ``suckers'' 
and ``losers''?
    Ms. Clarke. Yes. I mean, elections in our country are hotly 
contested and are coming down to narrow margins, and it's 
critical that we count every vote, no matter whether it's cast 
by mail or cast during early voting or cast on election day. 
Making sure that every American's voice is counted is critical.
    In Virginia, we recently had an election that was so close 
that it was decided by a coin toss.
    Mr. Raskin. I yield back. Thank you, Mr. Chairman.
    Chairman Clyburn. Thank you very much.
    The chair now recognizes Ms. Velazquez for five minutes.
    Ms. Velazquez. Thank you, Mr. Chairman and Ranking Member, 
for this timely and important hearing.
    And I just want to excuse myself because, as chair of the 
Small Business Committee, I just finished my congressional 
hearing. So, I'm glad that I was able to get back to be able to 
ask some questions to the witnesses on this important issue.
    Ms. Clarke, did polling-place closures during the 2020 
primaries have a disproportionate impact on minority voters?
    Ms. Clarke. Thank you, Congresswoman. They absolutely did.
    And I want to share an image from Louisville, Kentucky. 
Jefferson County, Kentucky, has one of the largest populations 
in the state, one of the largest Black populations in 
particular, and there was one polling site serving this entire 
county that is home to Louisville. And at 6 p.m. when the polls 
closed, people were literally racing from their jobs and 
banging on the doors of this Expo Center in order to ensure 
that their voice could be heard.
    It is really critical that we ensure that communities of 
color, in particular, are adequately served by appropriate 
numbers of polling sites.
    I'll share one additional image, from Milwaukee, Wisconsin. 
On April 7, 2020, outside of Marshall High School, you have 
largely Black voters in garbage bags waiting in rain to vote 
because the city reduced the number of polling sites from 180 
to 5.
    This has become a widespread form of voter suppression in 
our country. And, particularly during the pandemic, we need to 
make sure that voters of color are adequately served by 
appropriate numbers of polling sites.
    Ms. Velazquez. Thank you.
    Dr. Kuppalli, how can the closure of polls impact health 
risks for voters during the pandemic? And what should states do 
to reduce this risk?
    Dr. Kuppalli. Yes. Thank you for that question.
    So, the closure of polls is a problem. As Ms. Clarke 
shared, when we have less polls, we have longer lines, and by 
having longer lines and people waiting longer, that increases 
their risk of being exposed to coronavirus. And, obviously, we 
don't want that to happen. We don't want people to have to be 
at risk for developing coronavirus, getting coronavirus.
    So, that is why in the guidelines we released with the 
Brennan Center we recommended, actually, increasing the number 
of polling locations. That way, people have shorter lines and, 
thus, shorter waits, so thereby decreasing the risk of being in 
contact with coronavirus.
    Ms. Velazquez. And given ongoing challenges in recruiting 
poll workers during the pandemic, some voters are still likely 
to face long lines.
    Ms. Washington, what advice would you give to voters who 
want to make sure they cast their ballot safely but may face 
long lines in the primary this year?
    Ms. Washington. Thank you so much for the question, 
Congresswoman.
    I know that many millions of Americans will vote in person 
on November 3 and many of them will be forced to wait in line. 
And to those Americans, I guess I would say: I've been there. 
I've stood in lines myself. And it's worth it. Because we have 
to remember that when you stand in a long line to vote, you 
have a chance to elect someone who can make it easier for you 
to vote the next time around.
    So, make a plan. Wear your mask. Pack your lunch and 
perhaps your dinner. Bring a pair of comfortable shoes. Bring 
some water and stay in line.
    But I would also call on Federal and state governments to 
do everything in their power to expand voting access. And there 
are three actions that they can take: first, make voting by 
mail and absentee voting available to every voter without 
requiring an excuse or a witness; second, expand early voting, 
both in-person and absentee; third, make voting on election day 
easier by extending the hours that polling locations are open 
and following the CDC guidelines to keep those places safe.
    Ms. Velazquez. Thank you very much.
    I yield back. My time has expired, basically. Thank you so 
much, Mr. Chairman.
    Chairman Clyburn. Thank you very much, Ms. Velazquez.
    The chair now recognizes Mr. Kim for five minutes.
    Mr. Kim. Thank you, Mr. Chairman. I appreciate you pulling 
this together.
    Dr. Kuppalli, I wanted to start with you. As a medical 
professional, are you or other medical professionals in our 
country able to predict the magnitude of the virus or where 
exactly it will be, the outbreaks that would be in our country 
on November 3? Are you able to predict that at this time?
    Dr. Kuppalli. So, thank you for that question. I am going 
to cushion that with the fact that I am not a modeler. I'm an 
infectious disease doctor. So, I personally cannot tell you 
where our outbreak will be at that time.
    I can tell you that we are very concerned that, with over 
40,000 confirmed infections a day, that things are not going in 
the right direction right now. We are also concerned with what 
we call a twindemic, with us heading into the fall, with both 
coronavirus and influenza, and also with the increased number 
of coronavirus cases that we're seeing in college communities 
now, where, as we start sending students home, that could also 
lead to an increased number of cases in other communities.
    So, you know, no, I can't predict it, but there are a lot 
of things that are very concerning right now.
    Mr. Kim. I share a lot of your concerns. And I've talked to 
a lot of other experts, and they've said the same thing that 
you did, which is, you know, no one in this country is going to 
be able to perfectly predict this, and there are a lot of 
variables out there like some of the ones you mentioned.
    We also know that this virus can spread very quickly, and 
it can be literally just days or weeks in which an outbreak 
comes together.
    So, for me, what keeps me up at night is exactly what you 
said, this concern about a second wave later on this year. I 
know you've studied this in terms of the history in our country 
and how we've gone through this before. And, you know, being 
from New Jersey, worrying about us hitting some type of level 
of spread that we in New Jersey had back in March and April, 
having that type of concern in late October or November. So, I 
pray that that doesn't happen, but that's something that's very 
much on my mind.
    So, I'd ask you, do you believe it's possible for parts of 
our country to suffer from serious outbreaks in late October 
into November that could potentially limit the ability for 
people to be able to vote in person safely?
    Dr. Kuppalli. That is a really good question. I think that 
there is definitely the possibility that we could have a 
serious outbreak later on in this fall. I think that, again, 
what we've talked about before is, the safest way to vote is 
going to be voting by mail. That's the best way to prevent 
transmission of coronavirus. And then implementing all these 
other ways of voting also helps limit the transmission of 
coronavirus.
    That being said, we have to make sure that we have in-
person voting. And the way to have safe in-person voting is by 
making sure we have hand sanitizer available, making sure we 
have everybody wear a face mask. We have shown that wearing 
face masks decreases the transmission of the virus. And also, 
making sure we have physical distancing. Those three things 
alone, by making sure we implement those measures and have good 
disinfection and sanitation measures of polling locations will 
make a huge impact.
    But making sure we can get the community transmission rates 
down to being as low as possible in advance of the election by 
taking the things that I recommended in my written statement 
will be imperative to making sure we have a safe and healthy 
election.
    Mr. Kim. Yes. Thank you, Doctor, for that.
    Ms. Clarke, I wanted to turn to you. Building off of what 
we just heard, you know, I'm very concerned about, you know, 
these issues and the spike that could happen later on this 
year. And I wanted see if you would agree with the assessment 
that it'd be prudent policy to take these contingencies across 
this country and ensure that any outbreak that does happen 
later on this year doesn't disenfranchise people and force them 
to risk their health to go and vote. And, in particular, I 
wanted to ask you about drop boxes for ballots and where that 
fits into the broader effort that we've been talking about 
today.
    Ms. Clarke. As a civil rights lawyer fighting to protect 
the rights of vulnerable communities every day, there are two 
things that I know are true: one, that this pandemic is having 
a harsher impact on Black people, on Latino people, and other 
vulnerable communities; and, two, that voter suppression is 
alive and well.
    So, for both of those reasons, it is really critical that 
we work in every corner of our country to ensure that all 
communities have access to the ballot, and not just on election 
day but both during early voting and streamlined absentee vote-
by-mail as well.
    So----
    Mr. Kim. Just one last thing, because my time is up here. 
Just a yes or a no: Is there any merit to the concerns about 
fraud when it comes to drop boxes and ballots?
    Ms. Clarke. No, absolutely not. Drop boxes are used in many 
communities across our country. They are safe. They are 
secured. They are monitored by officials and provide another 
safe way for voters to submit and deposit their absentee 
ballots in communities across our country.
    Mr. Kim. Great. Thank you so much.
    Mr. Chairman, I yield back.
    Chairman Clyburn. Thank you, Mr. Kim.
    And thanks to all of you for your questions.
    The chair now recognizes Ranking Member Scalise for any 
closing comments he would like to make.
    Mr. Scalise. Thank you, Mr. Chairman.
    And, again, want to thank our witnesses for participating 
in this hearing.
    Mr. Chairman, there were a lot of things that were brought 
up during the hearing that we had today that I think first 
should be addressed on some of these. I know a few members on 
your side referenced a series of comments made by somebody 
who's peddling a book right now out of context, talking about 
the President, as we seem to hear in this politically charged 
environment, unfortunately, where they're going after the 
President on anything and everything, whether it's valid or 
not.
    So, as we're talking about whether or not the President 
downplayed anything relating to coronavirus, Dr. Fauci was just 
interviewed--while we were having this hearing, Dr. Fauci was 
interviewed. The reporter asked him, ``So, did you get a sense 
that he was''--the President--``or wasn't downplaying this?''
    This is Dr. Fauci from just about an hour ago: Quote, ``No. 
No, I didn't. I didn't get any sense that he was distorting 
anything. In my discussions with him, they were always 
straightforward about the concerns that we had. We related that 
to him. When he would go out, I'd hear him discussing the same 
sort of things. He led off and say, we just got through with 
the briefing with the group from the task force, and we would 
talk about it.''
    These suggestions that people throw out, anonymous sources 
that turn out to be debunked, I wish we wouldn't peddle in 
those kind of conspiracy theories. But I understand this is a 
hyper-charged environment, and I think it's important to point 
out the facts. We should be sticking to the facts.
    This President's record, by the way, on the military is so 
much stronger than Presidents we've seen recently, especially 
the previous administration. This President led the charge to 
rebuild our Nation's military, give troops a pay raise, give 
them the support they need. They were dying in training 
accidents. Our men and women in uniform were dying in training 
accidents by a five-to-one margin more than they were dying in 
combat under the previous administration. This President has 
had their back on so many of those fronts.
    Now let's talk about voting. It seems that some still want 
to peddle this myth that the post office can't handle the 
volume, that there was some kind of issue with the post office, 
that more money is needed for states.
    First of all, let's go to post office. We know now, they 
pointed out in multiple hearings--no one has disputed it--they 
have more than enough money to not only get through the rest of 
this year but even to the middle of next year, if they don't 
get another dime from Congress. They have enough money to carry 
out a fair and safe election.
    There are some states--and this has been pointed out, and I 
wish this hearing would--but there are some states who have 
been able to go identify where they require too late of a time 
to submit the mail-in ballots. For example, some states, one or 
two days before the election, they can let you mail a ballot 
in, which means, days or maybe weeks after, ballots are still 
coming in.
    We saw this in California, by the way, with harvesting, 
where, more than three weeks after the election, three weeks 
after the election, there were races that were being 
overturned, that one person was winning the night of the 
election by six points, and then a week later it's closer, and 
a week later ballots still keep showing up mysteriously. Three-
plus weeks later, the ballots are still showing up, and then 
the election results change, and then, surprisingly, no more 
ballots show up after that.
    I don't think the American people want to see a case where 
we have to wait weeks and weeks to get the result from some 
states. Let's let the states take care of their elections in a 
proper way, give them the tools they need.
    By the way, in the CARES Act, Mr. Chairman, we gave states 
billions of dollars that they still have. There is probably 
over $75 billion of the $150 billion we gave states that is 
still available to those states. Not one state has run out of 
that money.
    That money, by the way, Mr. Chairman, can be used to make 
sure that, under COVID, as we have additional needs to safely 
allow people to vote in person--if they need sanitizer, if they 
need masks, all of those things are covered under the money we 
already appropriated.
    Some people keep throwing billions of dollars around, as if 
this is monopoly money. We don't need to send them more money. 
There is money sitting in every state's coffers right now that 
can eligibly be used to safely run elections if there are 
additional things that they need. If they run out of money, 
then that's a conversation we can have, but not one state has 
run out of the billions, $150 billion, that we sent them. So, I 
think that's important to point out as well.
    As we heard from a number of our witnesses, we also heard 
from different studies, talked about different studies that are 
out there that talk about the problems if we were to, for 
example, mandate--and I agree with so many of the witnesses 
that Americans have more options than they've ever had before 
to legally vote. We need to fight to make sure that that's 
maintained. And if there are problems, let's go and address 
them in those particular states.
    But if you want to go vote in person, that option is there. 
Dr. Fauci, Dr. Birx, all these doctors have said you can safely 
do it. And that's your choice, like I've exercised and so many 
other people have exercised just in these last few months.
    If you want to mail in a ballot, you can request a mail-in 
ballot. Each state has their own procedures. Again, they debate 
these within the states, and the states run those elections, 
and the states know what they need to do to ensure that people 
can legally vote in those states.
    If we were to have a one-size-fits-all mandate, for 
example, that every person that's on a voting roll is mailed a 
ballot, we know, any state will tell you, whatever the 
percentage is, there are millions of people that will be mailed 
ballots that aren't legally on the rolls, for various reasons. 
Some might be nefarious. Some other people move. People move 
all the time. People die. That's why you need to clean up your 
rolls on a regular basis.
    Los Angeles County, again, was cited. Over a million and a 
half people who were legally on their rolls in one county, and 
they wouldn't remove them until a judge finally forced them to 
clean up their rolls. Twenty-eight million--you've heard those 
numbers--of ballots that just disappeared. Where they are, who 
knows. But, again, is this the kind of environment we want?
    Now, what we should be doing is working with the states to 
make sure they have the tools they need. We sent them over $100 
billion. They still have money available to run safe and fair 
elections in person. Many of them expanded opportunities for 
voting in other ways as well. But this idea that the Federal 
Government should make states run a California-type system, 
when, again, weeks and weeks after the election in California, 
results were changing, that's not something I think instills 
confidence among voters.
    It's not only important that we ensure the franchise of the 
vote but also the confidence that, when you cast that vote, 
that nobody else is going to be able to go and nullify your 
vote with an illegal vote or that you are going to have to wait 
weeks and weeks to get the result.
    This is America. We love participating in democracy. We 
promote democracy. But we also believe in this peaceful 
transition of power. And that means we respect the results that 
we get, not denying the results of an election. Getting the 
results of the election on election night, and then continuing 
to move our country forward.
    So, with that, I hope we'll be able to work together on 
those challenges and address these other false issues that have 
come up to identify them as well.
    With that, Mr. Chairman, I yield back.
    Chairman Clyburn. I thank the ranking member for his 
closing statement and for yielding back the time.
    Let me close by thanking all of our panelists for their 
remarks here today. It was very instructive to hear Ms. Clarke 
and Ms. Marziani, both voting rights advocates, and Dr. 
Kuppalli, an infectious disease physician, agree on the same 
basic steps that should be taken to prepare for the November 
election.
    Indeed, as Ms. Washington has testified, voters are simply 
asking for voting options in order to cast their ballot freely, 
safely, and fairly.
    This testimony was consistent with the CDC's science-based 
guidelines urging more early voting, more polling places, and 
more options for voters to vote by mail or by drop box , or as 
we've done here in South Carolina, established satellite voting 
places during the month of October. These recommendations are 
sensible and would minimize the risk of the coronavirus for 
voters.
    I ask unanimous consent to enter into the record a letter 
the select subcommittee has received in support of these 
recommendations from the National Disability Rights Network. 
These measures are especially important to ensuring that 
Americans with disabilities are able to safely cast their 
votes.
    Hearing no objections, so ordered.
    Chairman Clyburn. With election day less than eight weeks 
away and early voting beginning much sooner, state and local 
officials must act now to ensure that these recommendations are 
effectively implemented. They must expand mail-in voting, drop 
boxes, and in-person voting, while recruiting poll workers in 
order to maintain or increase the number of polling places on 
election day.
    Given the virus's more harmful impact on seniors, younger 
Americans must be recruited to serve as poll workers in greater 
numbers than ever before. I urge every American who can serve 
as a poll worker this year to do so. Your democracy needs you.
    We know that there is still work to do to prevent a repeat 
of the long lines that forced many voters to wait five, six, or 
even seven hours. In fact, I recall a gentleman down in Texas 
who said it took him seven hours to cast his vote, but he 
stayed there to cast a vote. I recall seeing people bang on 
windows in Kentucky, getting there one minute after the time 
because they had to work, and being locked out of the voting.
    I will say to my colleagues, that's not what I call fair. 
That's not what I call supporting this democracy. We ought to 
all agree that that is just wrong, and we must do better.
    I remember, as some may do, I remember when Beaufort County 
was majority-African-American and nobody of color was holding 
any elective office in the whole county. John Lewis, our late 
colleague, beaten within minutes of death trying to register 
people to vote. At a time when Alabama was almost 40 percent 
African American, less than two percent of African Americans 
were registered to vote.
    That's not fair, but that is what we've inherited. So, much 
of that came rushing back in after the Supreme Court decision 
in Shelby v. Holder.
    We all know that there's a problem in many communities, 
many states, counties, with people being allowed the unfettered 
access to the vote. And I kind of resent, anybody telling me 
that a local state will resist the Federal Government telling 
them how to run the elections. When I saw the Federal 
Government denying my parents, both college graduates, denying 
them the vote because they didn't know how many bubbles were in 
a bar of soap. That's the kind of state law that we have 
inherited.
    So,, I want us to hopefully think about this democracy we 
are trying to preserve. Are we in pursuit of a more perfect 
Union, or are we backtracking on that pursuit? Our democracy 
depends on all of us.
    With that, and without objection, all members will have 
five legislative days within which to submit additional written 
questions for the witnesses to the chair, which will be 
forwarded to the witnesses for their response.
    I would ask our witnesses to please respond as promptly as 
you're able to.
    Chairman Clyburn. This hearing is adjourned.
    [Whereupon, at 3:31 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
